<html>
<title> - THE EXPANSION AND TROUBLING USE OF ICE DETENTION</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                    THE EXPANSION AND TROUBLING USE OF ICE 
                               DETENTION

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                      IMMIGRATION AND CITIZENSHIP

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 26, 2019

                               __________

                           Serial No. 116-53

                               __________

         Printed for the use of the Committee on the Judiciary
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


      Available via the World Wide Web: http://judiciary.house.gov
      
                               __________
                                

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-409                       WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
       
      
      
      
                       COMMITTEE ON THE JUDICIARY

                   JERROLD NADLER, New York, Chairman
ZOE LOFGREN, California              DOUG COLLINS, Georgia,
SHEILA JACKSON LEE, Texas              Ranking Member
STEVE COHEN, Tennessee               F. JAMES SENSENBRENNER, Jr.
HENRY C. ``HANK'' JOHNSON, Jr.,        Wisconsin
  Georgia                            STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida          LOUIE GOHMERT, Texas
KAREN BASS, California               JIM JORDAN, Ohio
CEDRIC L. RICHMOND, Louisiana        KEN BUCK, Colorado
HAKEEM S. JEFFRIES, New York         JOHN RATCLIFFE, Texas
DAVID N. CICILLINE, Rhode Island     MARTHA ROBY, Alabama
ERIC SWALWELL, California            MATT GAETZ, Florida
TED LIEU, California                 MIKE JOHNSON, Louisiana
JAMIE RASKIN, Maryland               ANDY BIGGS, Arizona
PRAMILA JAYAPAL, Washington          TOM McCLINTOCK, California
VAL BUTLER DEMINGS, Florida          DEBBIE LESKO, Arizona
J. LUIS CORREA, California           GUY RESCHENTHALER, Pennsylvania
MARY GAY SCANLON, Pennsylvania,      BEN CLINE, Virginia
  Vice-Chair                         KELLY ARMSTRONG, North
SYLVIA R. GARCIA, Texas                Dakota
JOE NEGUSE, Colorado                 W. GREGORY STEUBE, Florida
LUCY McBATH, Georgia
GREG STANTON, Arizona
MADELEINE DEAN, Pennsylvania
DEBBIE MUCARSEL-POWELL, Florida
VERONICA ESCOBAR, Texas
        Perry Apelbaum, Majority Staff Director & Chief Counsel
                Brendan Belair, Minority Staff Director


              SUBCOMMITTEE ON IMMIGRATION AND CITIZENSHIP

                     ZOE LOFGREN, California, Chair
                PRAMILA JAYAPAL, Washington, Vice-Chair
J. LUIS CORREA, California           KEN BUCK, Colorado,
SYLVIA R. GARCIA, Texas                Ranking Member
JOE NEGUSE, Colorado                 ANDY BIGGS, Arizona
DEBBIE MUCARSEL-POWELL,              TOM McCLINTOCK, California
  Florida                            DEBBIE LESKO, Arizona
VERONICA ESCOBAR, Texas              KELLY ARMSTRONG, North
SHEILA JACKSON LEE, Texas              Dakota
MARY GAY SCANLON,                    W. GREGORY STEUBE, Florida
  Pennsylvania
                    David Shahoulian, Chief Counsel
                    Andrea Loving, Minority Counsel
                            
                            
                            C O N T E N T S

                              ----------                              

                           SEPTEMBER 26, 2019

                           OPENING STATEMENTS

                                                                   Page
The Honorable Pramila Jayapal, Washington, Subcommittee on 
  Immigration and Citizenship, House Committee on the Judiciary..     2
The Honorable Ken Buck, Colorado, Ranking Member, Subcommittee on 
  Immigration and Citizenship, House Committee on the Judiciary..     8
The Honorable Jerrold Nadler, Chairman, House Committee on the 
  Judiciary......................................................     9

                               WITNESSES

Ms. Selene Saavedra-Roman, College Station, Texas
    Oral Testimony...............................................    42
    Prepared Statement...........................................    44
Mr. Denis Davydov, San Jose, California
    Oral Testimony...............................................    50
    Prepared Statement...........................................    52
 Ms. Blanche Ornella Engochan, Silver Spring, Maryland
    Oral Testimony...............................................    56
    Prepared Statement...........................................    58
 Ms. Heidi Altman, Director of Policy, National Immigrant Justice 
  Center
    Oral Testimony...............................................    60
    Prepared Statement...........................................    62
 Mr. Jorge Baron, Executive Director, Northwest Immigrant Rights 
  Project
    Oral Testimony...............................................    77
    Prepared Statement...........................................    80
 Ms. Melanie Schikore, Executive Director, Interfaith Community 
  for Detained Immigrants
    Oral Testimony...............................................    89
    Prepared Statement...........................................    91
 Mr. Thomas D. Homan, Former Acting Director, U.S. Immigration 
  and Customs Enforcement
    Oral Testimony...............................................   100
    Prepared Statement...........................................   102
 Mr. Charles A. Jenkins, Sheriff, Frederick County Sheriff's 
  Office
    Oral Testimony...............................................   107
    Prepared Statement...........................................   109

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable Adam Smith; Submitted by the 
  Honorable Pramila Jayapal......................................     4
Complaint Filed by Civil Rights Organizations regarding ``Failure 
  to provide adequate medical and mental health care to LGBTQ 
  people and people living with HIV in Immigration detention 
  facilities''; Letters of Support from over 70 LGBTQ and allied 
  organizations, the National Council of Asian Pacific Americans, 
  and Seattle Mayor Jenny Durkin, and; a Resolution of Support 
  from the U.S. Conference of Mayors; Submitted by the Honorable 
  Pramila Jayapal................................................    12
Prepared Statements of the American Civil Liberties Union; Asian 
  Americans Advancing Justice; the American Immigration Council; 
  Al Otro Lado; the Center for Victims of Torture; Detention 
  Watch Network; the Friends Committee on National Legislation; 
  Government Accountability Project; the Interfaith Immigration 
  Coalition; the National Immigration Forum; the Southeast Asia 
  Resource Action Center; United We Dream, with their article 
  with Center for American Progress entitled, ``DACA Recipients' 
  Livelihoods, Families, and Sense of Security Are at Stake This 
  November,'' and report entitled, ``The Truth About ICE & CBP,'' 
  and; Prepared Statement of Abdikadir Abdulahi Mohamed; 
  Submitted by the Honorable Pramila Jayapal.....................   124
Newsweek article entitled, ``Ex-ICE Director Says He Considered 
  `Beating' Latino Congressman During Hearing''; Submitted by the 
  Honorable Joe Neguse...........................................   217
American Immigration Council and American Immigration Lawyers 
  Association letter regarding ``Failure to Provide Adequate 
  Medical and Mental Health Care to Individuals Detained in the 
  Denver Contract Detention Facility,'' and American Civil 
  Liberties Union Colorado report entitled, ``Cashing in on 
  Cruelty''; Submitted by the Honorable Joe Neguse...............   222
Medium article entitled, ``Between White Nationalism and Sheriff 
  Chuck Jenkins''; Submitted by the Honorable Sheila Jackson Lee.   239

                                APPENDIX

Statement of the Honorable Sheila Jackson Lee....................   250
Washington Post article entitled, ``The other problem with ICE 
  detention: Solitary confinement''; Submitted by the Honorable 
  Zoe Lofgren....................................................   260

 
            THE EXPANSION AND TROUBLING USE OF ICE DETENTION

                              ----------                              


                      THURSDAY, SEPTEMBER 26, 2019

                        House of Representatives

              Subcommittee on Immigration and Citizenship

                       Committee on the Judiciary

                            Washington, DC.

    The subcommittee met, pursuant to call, at 10:31 a.m., in 
Room 2141, Rayburn Office Building, Hon. Zoe Lofgren [chairman 
of the subcommittee] presiding.
    Present: Representatives Lofgren, Nadler, Jayapal, Correa, 
Garcia, Neguse, Mucarsel-Powell, Jackson Lee, Scanlon, Buck, 
Collins, Biggs, McClintock, Lesko, Armstrong, and Steube.
    Staff present: Joshua Breisblatt, Counsel; Rachel Calanni, 
Legislative Aide/Professional Staff Member; Andrea Loving, 
Minority Chief Counsel, Subcommittee on Immigration and 
Citizenship; and Andrea Woodard, Minority Professional Staff 
Member.
    Ms. Lofgren [presiding]. All of our witnesses are seated 
now. We welcome you, and the Subcommittee on Immigration and 
Citizenship will come to order.
    Without objection, the chair is authorized to declare 
recesses of the subcommittee at any time.
    We welcome everyone to this morning's hearing on the 
Expansion and Troubling Use of ICE Detention. The Trump 
Administration is detaining over 50,000 people daily, a 50 
percent higher rate than the previous Administration. With the 
lack of enforcement priorities in this Administration, we have 
seen a significant uptick in the detention of pregnant women, 
asylum seekers, and those without criminal convictions. At the 
same time, there have been several new inspector general 
reports, which we have had hearings on, that shed light on 
unsanitary and unsafe conditions in ICE facilities, and it is 
with this backdrop that we hold today's hearing.
    Now, I have chaired the Immigration Subcommittee this year 
and in prior years. One of the things I am committed to doing 
is to making sure that less senior members of the committee 
also have an opportunity to sit in the chair, have the 
opportunity to shape the hearing and learn how to preside. And 
with that in mind and without objection, my colleague and 
champion of this important issue, Representative Pramila 
Jayapal, will preside over this hearing. And I now recognize 
Ms. Jayapal for her opening statement, and ask her to take the 
chair.
    Ms. Jayapal [presiding]. Thank you so much, and good 
morning. I would like to thank my colleague, Representative 
Lofgren, chairwoman of the Immigration Subcommittee, for her 
tremendous work and for allowing me to chair this hearing 
today. I also recognize our chairman, Jerry Nadler.
    We have witnessed an unprecedented increase in the use of 
immigration detention over the last few decades. In the mid-
1990s, the average number of people detained each day was under 
10,000, rising to about 20,000 in the early 2000s, and then 
hitting about 30,000 in 2010. Just 3 years ago, the average 
daily population was about 34,000. In stark contrast, as of 
September 7th, 2019, the average daily population of people 
detained in an ICE facility was over 52,000 people every day, 
well above the 45,000 that Congress provided funding for in the 
Fiscal Year 2019 appropriations bill, and 54 percent higher 
than in 2016.
    It is a universally-accepted fact that immigration 
detention is supposed to be a civil, non-punitive function. 
According to ICE, ``Detention is solely for the purpose of 
either awaiting the resolution of an individual's immigration 
case or to carry out a removal order. ICE does not detain for 
punitive reasons.'' However, the immigration detention system 
is a virtual replica of the criminal incarceration system, 
which is intended to be punitive. In many cases, individuals 
are detained in county jails alongside those who have been 
charged or convicted of violent crimes. It is for all intents 
and purposes immigration incarceration often with little or no 
due process.
    Whistleblower reports describe dangerous conditions and 
subpar medical care in various detention facilities. An ICE 
supervisor warned that ICE's own medical service provider was 
``severely dysfunctional and that preventable harm and death to 
detained people has occurred.'' The supervisor stated that the 
facility staff ignored repeated warnings about the care of a 
man with schizophrenia who later died by suicide while in 
solitary confinement. In addition, the DHS inspector general 
has released multiple reports concluding that ICE detention 
conditions routinely ``undermine the protection of detained 
people's rights, their human treatment, and the provision of a 
safe and healthy environment.
    In one damning report about the Adelanto Detention Facility 
in California, the IG said that they found nooses dangling from 
air vents, talked to individuals unable to access basic dental 
care for months and years resulting in avoidable tooth loss, 
and wrote about a man in a wheelchair being placed in solitary 
and not once being moved to a bed to sleep or being permitted 
to brush his teeth for 9 days. Despite these serious findings, 
however, in October 2018, ICE gave Adelanto a passing rating 
during its last inspection.
    This blatant disregard for accountability and failure to 
conduct meaningful oversight is not confined to Adelanto. It is 
pervasive across the detention system. The inspector general 
has also written several reports concluding that, ``ICE does 
not adequately hold detention facility contractors accountable 
for not meeting performance standards.'' In addition, the IG 
found that rather than imposing financial penalties, ICE 
haphazardly issues waivers to facilities, even though the 
Agency does not have formal procedures and policies to provide 
waivers. Unsurprisingly, the inspector general has concluded 
that ICE's inspection and monitoring of its facilities does not 
produce compliance or lead to systemic improvements in the 
detention system.
    Further, we have seen growing numbers of pregnant people, 
asylum seekers, LGBTQ people, and other vulnerable populations 
in detention, as well as a disturbing surge in the detention of 
regular people, people who are trying to do the best that they 
can for themselves and their families, people living and 
working in our communities. Most Americans, I think, would be 
shocked to learn that the vast majority of people in detention 
have never been charged of a crime, much less convicted of one.
    In fact, the number of people who had never been convicted 
of a crime or convicted of a minor crime has increased by 58 
percent since September 26th and December 2018, resulting in 
the detention of about 39,000 people. And among those who do 
not have convictions, we would do well to look closely at those 
cases. ICE is detaining many people for minor crimes and, in 
some cases, older crimes where people have faced the justice 
system and moved on to lead healthy lives. All of this 
detention is unnecessary, inhumane, and wasteful.
    And who is the beneficiary of this system? Private for-
profit prisons detain nearly three-quarters of all people in 
ICE custody. The average cost for detention of an adult is 
around $130 a day, and even more in family detention, about 
$298 per day of American taxpayer money. Since 2017, the top 
two private for-profit corporations, GEO Group and CoreCivic, 
have received over $730 million of taxpayer money in the form 
of ICE detention contracts.
    But we have sensible solutions. I have a bill that I 
introduced with the chairman of the Armed Services Committee, 
my colleague, Adam Smith. It is the Dignity for Detained 
Immigrants Act, and it would create justice and due process in 
the detention system by eliminating mandatory detention, 
terminating the use of for-profit prisons, increasing 
oversight, accountability, and transparency, and establishing 
real alternatives to detention. Without objection, I would like 
to make Congressman Smith's statement a part of the record.
    [The information follows:]
      

                      REP. JAYAPAL FOR THE RECORD

=======================================================================

      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Jayapal. I am proud to hold this hearing today so we 
can talk about real solutions, and I look forward to hearing 
the testimony of our witnesses. And with that, it is now my 
pleasure to recognize the ranking member of the subcommittee, 
the gentleman from Colorado, Mr. Buck, for his opening 
statement.
    Mr. Buck. Thank you. I want to begin my statement by 
recognizing the parents who are here of individuals who have 
been brutally murdered by illegal immigrants. I want to thank 
you very much for having the courage to appear today and let 
you know that we grieve with you, as all Americans do, for the 
unnecessary death of your children. Thank you very much.
    ICE detention serves a necessary role in the enforcement of 
our Nation's immigration laws. Detention ensures that an 
individual in removal proceedings will appear at any 
immigration hearing, and ensures ICE can effectuate a final 
order of removal. ICE detention is also an essential component 
of effective border security. The impact of ICE detention 
extends into the interior of the country to every community. By 
detaining individuals who face criminal charges or who have 
been convicted of serious crimes, ICE ensures that they are not 
free to re-offend. This reduces crime and enhances public 
safety in our communities for citizens and lawful immigrants 
alike.
    Approximately 95 percent of individuals in ICE custody are 
recent border crossers, convicted criminals, or face pending 
criminal charges. Of the detainee population arrested by ICE in 
the interior of the country, almost 90 percent of those 
individuals are convicted criminals or face pending criminal 
charges. Many of these individuals are involved in serious 
criminal activity, including assaults, homicide, drug dealing, 
DUIs, and gang activity. While sanctuary jurisdictions force 
law enforcement to disregard ICE detainers and release 
removeable criminals back into the community, many 
jurisdictions have partnered with ICE. These partnerships are 
based on the recognition that ICE detention helps keep 
dangerous criminals off of the street for good. I commend the 
work being done by State and local law enforcement officers who 
recognize the important role that ICE detention plays.
    It is also important recognize that ICE detention 
facilities are held to a high standard of custodial care to 
keep detainees safe and secure. Through the Performance-Based 
National Detention Standards, ICE ensures that the quality of 
care received by detainees is good, even higher in many cases 
than what U.S. citizens receive in State and local jails.
    In August I toured an ICE contracted detention facility in 
my home State of Colorado. Here is what I saw. I saw dedicated 
and professional staff and extensive health services, including 
access to medical treatment, dental care, and mental health 
care. Every detainee was offered preventive care, including an 
MMR vaccination, a telephone with toll free access to a 
detainee's consulate, a law library and immigration court, 
dormitories with a day room equipped with tables and chairs, 
televisions, games, and Xboxes, a commissary, microwaves and 
very clean food preparation facilities, indoor and outdoor 
recreational facilities, workout equipment, a basketball court, 
and opportunities to engage in a voluntary work program. 
Contrary to false claims from members of Congress, those are 
not the kinds of facilities reminiscent of a concentration 
camp.
    Others question the use of so-called for-profit prisons, 
arguing that the government should not contract with private 
detention facilities and denouncing such facilities as 
unaccountable and prone to provide poor care, but that that 
criticism is simply inaccurate. Contract detention facilities 
are accredited by third parties. They must comply with ICE's 
performance-based National Detention Standards, which impose a 
very high standard of care. If a facility wants to deviate from 
those strict standards, it must obtain a waiver from ICE. 
Facilities are held accountable for complying with the 
standards. A toll free hotline is available in multiple 
languages for detainees, staff, and members of the public to 
report any problems in detention.
    Information about the detention reporting and information 
line is provided to every detainee during orientation in the 
detainee handbook and advertised on flyers in English and 
Spanish throughout the facilities. The detention reporting and 
information line has resolved more than 2,000 case assistance 
calls monthly on average since it launched in September 2012.
    The inspector general also recently audited some 
facilities, and where deficiencies are discovered, ICE takes 
corrective action. Such facilities also tend to be newer and 
nicer than other facilities available in State and local jails, 
and many were actually designed with ICE standards in mind. The 
private sector has also been able to realize cost reductions 
without sacrificing quality of care, leading to a cost savings 
for American taxpayers. ICE detention serves an essential 
function and offers an appropriate custodial setting.
    I am pleased today to hear from the witnesses about the 
importance of ICE detention, the high-quality care detainees 
receive in custody, and urge my colleagues to ensure that ICE 
is funded at an adequate level to procure sufficient detention 
space and maintain high standards of care for those in custody. 
And I yield back.
    Ms. Jayapal. Thank you, Mr. Buck. I now recognize the 
chairman of the Judiciary Committee, the gentleman from New 
York, Mr. Nadler, for his opening statement.
    Chairman Nadler. Thank you, Madam Chair. Over the last 7 
months, this committee has devoted considerable attention to 
the Trump Administration's cruel policies at the border and its 
attempts to deter individuals from seeking asylum and other 
humanitarian protections from our Nation. Today we shift our 
focus to examining the impact of the Administration's approach 
to immigration detention in the interior of the United States.
    Unfortunately much of what has been observed in the 
interior is the same as what we have seen at the border. Under 
the Trump Administration, the number of people detained by 
Immigration and Customs Enforcement--ICE--has skyrocketed while 
detention conditions and Agency transparency and accountability 
have deteriorated. Detention levels have increased largely due 
to the Administration's manipulation of the budget process to 
expand the number of detention beds. As of September 14th, 
2019, ICE was holding 51,814 people in detention, roughly 
11,000 more people per day than what was authorized by the 
Fiscal Year 2019 appropriations bill.
    Of those detained, we are seeing an increasing number of 
women, including pregnant women, and asylum seekers who have 
committed no crime and who pose no threat to our country. Not 
surprisingly, with the increased number of detainees, we are 
also seeing an increase in reports of unsafe and sanitary 
conditions in detention facilities as well as allegations of 
mistreatment.
    In September 2018, the Department of Homeland Security 
inspector general documented significant violations of ICE's 
own detention standards, not to mention basic human dignity, at 
the Adelanto Detention Center in California. The IG observed 
nooses dangling from air vents--nooses--individuals denied 
access to basic dental care, and a disabled man being placed in 
segregation and left in his wheelchair unattended for 9 days. 
Such treatment should shock the conscience. Despite this, 
Adelanto passed its last ICE inspection in October 2018. A June 
2019 IG report also found unsanitary conditions in the Essex, 
New Jersey detention facility, including mold, spoiled food, 
and malfunctioning toilets. The IG also found that detainees at 
Essex suffered from a shortage of personal hygiene products, 
including soap and toiletries. Collectively, the violations at 
Essex were so severe that the IG's investigation led to 
immediate personnel changes at the facility.
    For most of American history, immigration matters have 
been, and are still today, adjudicated as a civil matter. In 
that spirit, the detention of immigrants in a system based on 
the criminal justice model should be the exception, not the 
rule. We have the capability to safely and compassionately 
process migrants, women, and children and to ensure that they 
appear for their scheduled hearings. Instead of relying on the 
physical detention of immigrants, ICE could employ a broad 
array of alternatives to detention with equal success, and at 
far less cost, and with much less brutality.
    Research has shown that automated telephone systems to 
remind people of their scheduled court dates and ankle monitors 
help ensure compliance for people released on their own with 
cognizance or on bond. According to Fiscal Year 2018 data, the 
average cost of detaining an immigrant per day is $208. In 
contrast, community-based alternatives to detention have been 
proven to operate effectively for as little as $17 per person 
per day.
    Further, the Family Case Management Program that ICE 
operated from January 2016 through June 2017 reduced compliance 
rates of 99 percent at a cost of just $38 per family per day. 
Despite the program's success, the Trump Administration 
terminated it. Fortunately, Congress has passed legislation 
that mandates that ICE restart the program this year.
    The Trump Administration's immigration policies have been a 
failure at a policy level and, more important, as a matter of 
basic human decency. I want to thank Chair Lofgren and Vice 
Chair Jayapal for holding this important hearing, and I thank 
all of today's witnesses for testifying, especially for those 
who have come forward to share their experience in ICE 
detention. I look forward to their testimony, and I yield back. 
I look forward to their testimony.
    I want to add one note before I yield back the balance of 
my time. We welcome, of course, the people here today as guests 
of--I am not sure of whom, but as guests--who are relatives of 
people who were murdered. But there is a terrible slander 
abetted by the President and by other people, a lie that says, 
in effect, that says directly, in fact, that illegal aliens, as 
they put it, immigrants are a danger to the United States, that 
they are criminals, that their rate of criminality is greater 
than that of native-born Americans, whereas, in fact, the 
statistics all show that every population, people born in the 
United States, people who come here legally, people who come 
here not with our laws. Some people are criminals. Some people 
are dangerous. But the statistics all show that immigrants, 
legal or otherwise, are less dangerous on average than native-
born people. It is a slander bordering on racism to highlight 
the opposite. And I think it is time the Administration and 
whoever else practices this were called out on it. I yield back 
the balance of my time.
    Ms. Jayapal. Thank you, Mr. Chairman. Before I introduce 
our witnesses, without objection I would like to make the 
following documents part of the record: a complaint filed 
yesterday regarding the failure to provide adequate medical and 
mental health care to LGBT people and people living with HIV in 
immigration detention facilities, letters of support for the 
Dignity for Detained Immigrants Act from over 70 LGBTQ and 
allied organizations, from the National Council of Asian 
Pacific Americans, from the Seattle mayor, my mayor, Jenny 
Durkin, and a resolution of support from the U.S. Conference of 
Mayors.
      

                      REP. JAYAPAL FOR THE RECORD

=======================================================================

      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    It is now my pleasure to introduce today's witnesses, and I 
want to thank all of you for being with us today and for taking 
the time to be here before the committee.
    First, we have Selene Saavedra Roman. Ms. Roman is a DACA 
recipient who currently works as a flight attendant for Mesa 
Airlines. She is a graduate of Texas A&M University and also 
has experience working in office administration, physical 
therapy, and early childhood education. We thank her for her 
courage and strength to share her experience in ICE detention 
and the treatment she received with us today. For the next 
witness, I would like to recognize my colleague from California 
to introduce our next witness.
    Ms. Lofgren. Thank you. I would like to introduce Denis 
Davydov. He is an asylee from Russia who fled to the United 
States because of Russia's anti-gay propaganda and the brutal 
violence that accompanies it. He is also here to share his 
experience in ICE detention. Mr. Davydov was granted asylum 
earlier this year. He now works as a sommelier in California. 
He is a spokesperson for immigrant equality and an advocate for 
LGBTQ and HIV-positive asylum seekers, and he also lives in San 
Jose, California which I represent. And we are happy to have 
you here, and I yield back.
    Ms. Jayapal. Thank you, Ms. Lofgren. Our next witness is 
Blanche Engochan. Ms. Engochan is an asylee from Cameroon, who 
has been a victim of the Administration's metering policy, CBP 
detention, and ICE detention. She was granted asylum this 
summer and released from immigration detention after more than 
6 months in custody. She now resides in Maryland and lives with 
her aunt. We commend her courage for testifying before us 
today, and we look forward to her testimony.
    Our next witnesses Heidi Altman. Heidi Altman is the 
director of policy at the National Immigrant Justice Center, an 
organization that provides legal services to more than 10,000 
vulnerable immigrants, refugees, and asylum seekers each year. 
Previously, Ms. Altman served as the legal director for the 
Capitol Area Immigrant Rights Coalition. She created the in-
house Immigration Services Program at the Neighborhood Defender 
Service of Harlem, and has served as a teaching fellow for 
Georgetown Law School's immigration clinic. Ms. Altman received 
her B.A. from Yale University and her J.D. from NYU Law School.
    Our next witness is Jorge Baron. Mr. Baron has served as 
the director of the Northwest Immigrant Rights Project since 
2008 and has worked with the organization since 2006. The 
Northwest Immigrant Rights Project is a legal services 
organization that also engages in community education on and 
advocacy for the rights of low-income immigrants and refugees. 
Previously Mr. Barone served as a law clerk at the U.S. Court 
of Appeals for the 9th Circuit in Seattle and held a fellowship 
with the New Haven Legal Assistance Association in Connecticut. 
Mr. Barone is a graduate of Duke University and Yale Law 
School, and I am very proud to say is a constituent of mine. 
Thank you, Mr. Baron, for being here.
    Melanie Schikore is executive director of the Interfaith 
Community for Detained Immigrants where she leads their efforts 
on comprehensive community and policy responses to detention. 
Ms. Schikore is an academic who specializes in immigration 
policy and has previously taught and completed research at 
institutions, including Concordia University, DePaul 
University, and Northwestern University. She received her B.A. 
from St. Louis University and her M.A. and Ph.D. from the 
University of Illinois. Thank you for being with us.
    Our next witness is Thomas Homan. Mr. Homan served as 
acting director of the U.S. Immigration and Customs Enforcement 
from January of 2017 to June of 2018. Prior to this, he served 
as executive associate director of ICE Enforcement and Removal 
Operations and has held a variety of other positions within the 
Agency since its creation. He served as a Federal law 
enforcement office for more than 34 years, as a police officer, 
Border Patrol agent, and as an agent of the former Immigration 
and Naturalization Service. He received his B.A. in criminal 
justice from State University of New York Polytechnic 
Institute. Thank you for being with us, Mr. Homan.
    Sheriff Charles Jenkins is currently serving his 4th term 
as sheriff of Frederick County, Maryland, and is an active 
member of the Maryland Sheriffs Association and the National 
Sheriffs Association. In his involvement with the National 
Sheriffs Association, he is partnered with DHS and ICE to 
participate in the 287(g) Delegation of Authority Program and 
the Intergovernmental Services Agreement, ICE Detainee Housing 
Program. Sheriff Jenkins has testified multiple times before 
the Maryland legislature and the U.S. Congress on immigration 
and law enforcement issues.
    We welcome all of our distinguished witnesses, and we thank 
you for participating in today's hearing. Now, if you would 
please rise, I will begin by swearing you in. Raise your right 
hand.
    Do you swear or affirm under penalty of perjury that the 
testimony you are about to give is true and correct to the best 
of your knowledge, information, and belief, so help you God?
    [A chorus of ayes.]
    Ms. Jayapal. Let the record show that the witnesses 
answered in the affirmative. Thank you, and please be seated.
    We will move onto the witness testimony part of this 
hearing. Please note that each of your written statements will 
be entered into the record in its entirety. Accordingly, I ask 
that you summarize your testimony in 5 minutes. To help you 
stay within that time, there is a timing light on your table. 
When the light switches from green to yellow, you have 1 minute 
to conclude your testimony. When the light turns red, it 
signals that your 5 minutes have expired. Ms. Roman, you may 
begin.

 TESTIMONIES OF SELENE SAAVEDRA ROMAN, COLLEGE STATION; DENIS 
DAVYDOV, SAN JOSE, CALIFORNIA; BLANCHE ORNELIA ENGOCHAN, SILVER 
 SPRING, MARYLAND; HEIDI ALTMAN, DIRECTOR OF POLICY, NATIONAL 
  IMMIGRANT JUSTICE CENTER; JORGE BARON, EXECUTIVE DIRECTOR, 
NORTHWEST IMMIGRANT RIGHTS PROJECT; MELANIE SCHIKORE, EXECUTIVE 
DIRECTOR, INTERFAITH COMMUNITY FOR DETAINED IMMIGRANTS; THOMAS 
D. HOMAN, FORMER ACTING DIRECTOR, U.S. IMMIGRATION AND CUSTOMS 
ENFORCEMENT; AND CHARLES A. JENKINS, SHERIFF, FREDERICK COUNTY 
                        SHERIFF'S OFFICE

               TESTIMONY OF SELENE SAAVEDRA ROMAN

    Ms. Roman. Good morning. Thank you for inviting me to 
testify at this important hearing today. My name is Selene 
Saavedra Roman, and I was detained for 38 days in an ICE 
detention center.
    I was brought to the United States of America undocumented 
at the age of 4. I attended public school in my home State of 
Texas and graduated from Texas A&M with a bachelor's degree in 
allied health and a minor in communications. I am a former 
Deferred Action for Childhood Arrivals recipient, which 
provided me a sense of relief from the looming fear of 
deportation. In 2017, I married my husband, David, who is a 
U.S. citizen and my petitioner for residency through an I-130, 
which was approved. The petition is the only first step of a 
lengthy journey to obtain residency, which we hoped would lead 
to my citizenship.
    In November 2018, I was hired by Mesa Airlines, Inc. as a 
flight attendant. On February 12th, 2019, I was assigned my 
first international flight to Monterrey, Mexico. I received 
reassurance from Mesa Airlines the day prior that I would be 
able to take the international flight. Everything went fine on 
the flight to Mexico, but when I arrived to George W. Bush 
Intercontinental Airport, I was detained at U.S. Customs. After 
24 hours in a waiting room at the airport and never having been 
explained clearly what was going on, it was determined that I 
was to be sent to an ICE detention center. This is how I 
arrived at the Montgomery Processing Center in Conroe, Texas.
    Let me tell you what I experienced while at the MPC. My 
first morning in the dorm hall, I was awakened by another woman 
who hurriedly explained that she and I were in charge of 
cleaning the bathroom that morning. I thought it was a joke at 
first. We only had brooms and a soapy mixture of water and 
shower gel to do the job. It was barely 4:30 a.m., and yet as 
soon as we finished cleaning, the guards finally yelled at us 
that it was time for breakfast.
    At mealtimes, we would only get 15 minutes to eat, the food 
was always cold and tasteless, and there was never any fresh 
fruit. The tables were dirty, they were not cleaned between 
dorm rotations, and after the last dorm would eat, the guard 
would ask for volunteers to clean the cafeteria when it was 
their responsibility. Can you imagine the mess? It was 
disgusting.
    We were given used underwear, we slept in freezing 
temperatures with no pillows, and we were forced to do labor 
with threat of isolation if not compliant. I watched one woman 
refuse to clean. She had already cleaned the dorm next door, 
and, as a result, she was put in isolation for several weeks. 
When she came out of isolation, she looked so distraught. She 
had plucked her eyebrows from all the stress she endured.
    Why are we being forced to clean? This is supposed to be a 
civil detention center, but instead we were treated as though 
we were serving a criminal sentence. We were just people who 
were awaiting our immigration trials. After that, I knew not to 
argue or talk back. We were made to believe by the guards that 
refusing any orders would lead to write-ups to directly affect 
our immigration cases. Many women worried that it would hurt 
their asylum cases.
    These feelings of fear and powerlessness consumed us and 
loomed over us. They permeated the entire dorm. Still, I cannot 
help wondering why we were all being treated like this. How 
could we be treated like we didn't mean anything? The guards 
would bully me around with their words and degrading comments, 
but were surprised and would back off when I would respond to 
them in English. There is so much more I could say about the 
poor conditions at MPC, like the freezing temperatures, the 
mattresses made of hard plastic, and the pillows, long time 
spent indoors with little outside recreation or fresh air, and 
no contact or visitation.
    But what I would like to leave you with is the impact that 
this detention center had on me. I lived in a constant state of 
uncertainty and fear each and every one of the 38 days that I 
was detained. I felt hopeless, powerless, and lost. I couldn't 
even look at myself in the mirror. My hair started to fall out. 
I am now experiencing constant levels of clinical depression 
and anxiety.
    This detention center broke my spirit. I lost faith in our 
institutions. I still have nightmares about what I endured at 
MPC. I am not the person I was before this whole situation 
happened. It is not easy for me to talk about this experience, 
but I am doing it because I can no longer be quiet. If this was 
my experience after 38 days, what must it be like for those who 
are held for months or even years? The people of the United 
States need to know the truth of what is going on in these 
detention centers. Thank you.
    [The statement of Ms. Roman follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Jayapal. Ms. Saavedra Roman, thank you so much for your 
courageous testimony. I am sorry you endured what you did. Mr. 
Davydov, you are recognized for 5 minutes.

                   TESTIMONY OF DENIS DAVYDOV

    Mr. Davydov. Chairwoman Lofgren, Vice Chairman Jayapal, 
Ranking Member Buck, and distinguished members of the 
subcommittee. Thank you for the opportunity to testify before 
you today about the 46 days I should have never spent in ICE 
detention. My name is Denis Davydov, and I'm a gay man from 
Russia living with HIV. I am sharing my story in partnership 
with Immigration Equality, the nonprofit that represented me 
during my 5-year asylum process, and in support of all LGBTQ 
and HIV-positive people in detention.
    In 2013, I had no choice but to escape Russia and come to 
the United States. Just 1 year prior, the Russian government 
passed an anti-gay propaganda law which painted gay people as 
perverts who were killing the country. Vigilante groups 
attacked and raped gay men and posted the videos online. The 
police did nothing about it, and I lived with the constant fear 
that I would be harmed. As an HIV-positive gay man, my life was 
even more at risk. HIV is seen as a gay disease in Russia, and 
seeking treatment could make me a target for violence.
    I went into hiding and stopped getting my medication, and 
with the spike in homophobia and lack of HIV treatment 
medication in Russia, I feared my situation would get much 
worse. I couldn't live like that anymore. I got a 6-month's 
U.S. tourist visa and flew to San Francisco. I remember it was 
the best place on the planet for gay people.
    For the first time ever, it didn't matter that I was gay. I 
could be open about all aspects of my life. It was magical. I 
joined a support group for HIV-positive people and I finally 
felt safe. I couldn't go back to Russia where the situation was 
becoming more hopeless for gay and HIV-positive people.
    I applied for asylum after my tourist visa expired, which 
allowed me to get a job and travel within the U.S. I wanted to 
explore this beautiful country, so I went on a week-long 
vacation to the U.S. Virgin Islands, but I was stopped by 
immigration officers at the airport on my way back to San 
Francisco and interrogated about my legal status. I told them I 
had an asylum case pending, that I am a resident of California 
with a Social Security number, paying my taxes, but they 
accused me of entering the U.S. for the first time and 
violating my visa. Then they arrested me.
    I was flown to a large detention facility in Miami, Krome. 
They put me in handcuffs, ankle bracelets, and wrapped a chain 
around my waist. And for the next 46 days, I was Mr. 876-
Russia.
    And for 10 years I had been managing my HIV in a way that 
allowed me to live safely and comfortably. When I was detained, 
my control over my health was completely taken away from me. To 
protect my compromised immune system from any infection, I need 
to follow a certain diet, have access to appropriate hygiene, 
and sleep well. Immigration detention didn't provide me with 
any of those things. I was held in a space with 100 other 
people where my compromised immune system was exposed to any 
virus or infection they had. Within week of being detained, I 
developed a fungal infection. This caused a rash, and I had 
itchy red spots on my genitals, and also I developed a cold and 
fever. And despite my coughing and sneezing and fatigue, the 
officers wouldn't let me rest. I couldn't sleep at night 
because I got so cold and it was loud with 100 people in the 
room, and I developed insomnia from stress.
    Once I spent 5 hours waiting in a freezing concrete room to 
see a specialist, and after 4 hours they told me he wouldn't be 
able to see me, and the doctor wouldn't be back for 2 days. My 
lawyer explained to the immigration judge that each day I spent 
in detention put my life in danger, but he didn't seem to care. 
As an HIV-positive gay man, I had a strong asylum case, but he 
didn't seem to care. Even though I did everything right in my 
asylum application, he didn't seem to care.
    I got an asylum interview notice while I was in detention, 
but the judge wouldn't let me attend. He wouldn't halt my 
deportation proceedings. I spent another month in detention. I 
spent my 30th birthday in detention as a criminal in the eyes 
of the U.S. government, and I never thought this country would 
treat an HIV-positive gay man this way. It felt like it was 
happening to someone else. It wasn't my story.
    So in July of this year, 5 years after arriving in the 
United States, I won my asylum. It was a huge relief for me. I 
felt a security I have never felt before. I can now start 
building a future knowing I'll never have to go into hiding 
again. I'm asking all of you sitting before me today to protect 
the rights of asylum seekers so they can find the same relief 
and security I did, to dismantle obstacles to those seeking 
safe haven in this beautiful country, to clear the path to 
LGBTQ and HIV-positive asylum seekers to find what they can't 
in our home countries, and support safety and freedom to be who 
we are. Thank you very much.
    [The statement of Mr. Davydov follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Jayapal. Thank you very much for your testimony, Mr. 
Davydov. Ms. Engochan, you have 5 minutes.

             TESTIMONY OF BLANCHE ORNELIA ENGOCHAN

    Ms. Engochan. Chairwoman Lofgren, Vice Chairman Jayapal, 
Ranking Member Buck, and distinguished members of the 
Subcommittee on Immigration and Citizenship, thank you for the 
opportunity to speak today about my experience as an asylum 
seeker in the United States.
    I didn't want to leave Cameroon. It was my home, and it was 
home to the people I loved. Like all refugees, I was forced to 
leave. I decided to come to the United States. It was the 
obvious choice. The United States is a powerful country that 
would protect me. Since I was a child, I knew America welcome 
people from all over the world. It would be a hard journey, but 
at the end of it, I would, I assumed, find some safety and 
peace. I never imagined that I would be put in chains or locked 
up in a crowded detention center with other traumatized humans. 
Sorry. Oh, my god.
    Ms. Jayapal. It is okay. Take your time.
    Ms. Engochan. On February 2019, I crossed the United States 
at the San Ysidro port of entry in San Diego. I was taken into 
custody. Two things stood out in my memory. One is the bitter 
cold in my cell. The other is my bitter fear. I had no idea 
what would happen. For all I knew, I would never be free again. 
Two weeks later when they transported me, they put me in 
chains. I now know this is called 5-point shackles. I didn't 
understand why they were treating me like a dangerous criminal. 
I still carry that humiliation with me.
    After a brief stop in Arizona, I was taken to the Adelanto 
Detention Facility in California. The good news was that maybe 
an asylum officer would give me an idea what was happening. The 
bad news I was trapped in a cruel place. At Adelanto, we 
weren't given enough food. I was hungry all the time, and I was 
tired all the time. I had trouble sleeping because of the fear 
that I would be sent back to my country. The light didn't go 
off until 1:00 in the night, and we were woken up only a few 
hours later, between 4:00 and 5:00 a.m. The medical staff run 
tests on me twice, but after the second test, they never told 
me the result, even though I was detained for several months.
    Maybe the worst thing in Adelanto was all the crying, women 
crying because they were reliving trauma or because they had 
suffered new abuse, or because they had gotten bad news in 
their case. The detention center is a house of tears. I applied 
for parole, but it was denied even though I had a sponsor. 
Other women had more than one sponsor and were also denied 
parole. There seemed to be no hope for me. Then I applied for a 
lawyer. That certain process was a mystery to me. The thought 
of facing a judge alone with my life and freedom on the line, 
that terrified me. I was lucky. I got a lawyer from Human 
Rights First. If not for her, I would probably still be locked 
up or deported back to danger in my country.
    At my hearing, the judge told me I had received asylum, and 
that same day I was released from Adelanto after over 6 months 
in detention. I am grateful for the asylum. I am living with my 
aunt, and I am looking forward to my new life. But my painful 
past is still with me, and it includes the months I spent 
locked up in the United States. It does not have to be this 
way. There are alternatives to detention that help asylum 
seekers understand how to apply for asylum and where and when 
to show up for our hearings.
    Locking up refugees who seek asylum is senseless and 
expensive. The cruelty costs a lot of money. I urge you please 
use alternative detention programs. Expand them. The United 
States, of all countries, should not treat refugees like 
criminals. Thank you very much.
    [The statement of Ms. Engochan follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Jayapal. Thank you so much for your powerful testimony. 
Ms. Altman.

                   TESTIMONY OF HEIDI ALTMAN

    Ms. Altman. Chairman Nadler, Chairwoman Lofgren, Acting 
Chairman Jayapal, Ranking Member Buck, and distinguished 
members of the committee. My name is Heidi Altman. I serve as 
the director of policy at the National Immigrant Justice 
Center, NIJC. We are a legal services and advocacy organization 
working to advance the human rights of all immigrants. I am so 
grateful for the light being shown on this issue today. I am 
grateful for the opportunity to be here today and to be 
following the brave and moving testimony of these three 
individuals to my right who survived the destructive system 
that is the topic of this hearing.
    NIJC has for decades endeavored to advocate for the legal 
and human rights of immigrants in immigration jails throughout 
the Midwest and nationally. And those experiences have brought 
us to one inexorable conclusion: the United States immigration 
detention system must end.
    I am mindful as we sit here today of a young man named 
Chris, an NIJC client. He is a legal permanent resident of the 
United States who has been here since he was 13. And while his 
deportation case proceeds, ICE is holding him right now without 
the opportunity to seek bond in a county jail in Illinois where 
he has been for 10 months. Chris had already served his court-
ordered sentence for the drug-related offenses that formed the 
basis of the immigration case against him, and these offenses 
stemmed from struggles with addiction that date back to his 
childhood when he bore responsibility for the care of his 
mother, who is paralyzed from the neck down. Chris' time in 
immigration detention, which, unlike his criminal sentence has 
no set end date, served to destabilize his family and disrupt 
his own recovery. And so today we have to ask, toward what end.
    Chris is one of nearly 500,000 people held by ICE this 
Fiscal Year in a detention system made up for more than 200 
county jails and private prisons that contract with ICE for 
profit. The Trump Administration would have us believe that the 
only way to manage the migration processing system is by 
locking up those going through the process, but it hasn't 
always been this way, and it doesn't need to be this way now. 
There are alternatives, smarter, and cheaper, and kinder, and 
effective alternatives as you will hear in great detail from my 
colleague, Ms. Schikore.
    But the immigration detention system as we know it today 
constitutes a relatively new experiment in American history. In 
the mid-1950s, in fact, the United States government 
intentionally rejected the institutional use of detention for 
migration processing, and this move was widely heralded as a 
forward progress marker. This forward progress halted in the 
1980s, however, when the government adopted a policy of the 
mass detention of arriving Haitian refugees and explicitly 
named as its goal the deterrence of future refugees. Yet the 
system took root, and through the 1980s and 1990s, the same 
political winds contributing to the mass incarceration of 
communities of color across the United States fueled the 
expansion of the immigration detention system into for-profit 
prisons and into county jails.
    This Administration's commitment to expanding this already-
bloated system was signaled from day one. The White House's 
proposed budget for Fiscal Year 2018 sought $2.7 billion to 
ramp up detention capacity to 51,379 people daily, a number 
they have already surpassed. This astonishing growth has been 
achieved in direct violation of congressional intent through 
the transfer and reprogramming of funds across agencies, and 
largely driven by the for-profit prison agency.
    This system that is so rapidly expanding is designed for 
impunity. There are no formal or enforceable regulations 
providing the minimal standards of care. DHS' own inspector 
general has sounded the alarm repeatedly regarding deficiencies 
and corruption in contracting and inspection, and, as a result, 
abuses persist with little recourse for those harmed.
    Medical negligence by ICE and its contractors is 
responsible for about half of all deaths in custody, and yet 
men and women continue to die with no remedial measures in 
place. Thousands of immigrants suffer for months, even years, 
in solitary confinement, tantamount to torture, while others, 
as you have heard, are served moldy food. Hunger strikes and 
attempts at suicide are common. This cycle of abuse and 
impunity reflects our government's failure to respect the 
dignity of the lives of those detained, and it is shameful.
    Today I urge all members of Congress to begin doing the 
hard work of laying a foundation to end the use of immigration 
detention, and while charting that course, to finally and 
urgently bringing meaningful accountability to the system. Some 
quick steps toward that end. Visit an immigration detention 
center in your district. See what's happening. Engage with it. 
Cut funding for ICE's detention and enforcement accounts. 
Support restrictions in DHS' transfer authority. Support 
investments in nonprofit-operated community-based alternatives, 
and support the Dignity for Detained Immigrants Act, which 
remedies many of the most harmful aspects of the detention 
system, including ending mandatory detention, ensuring a 
presumption of liberty rather than a presumption of detention 
for all immigrants, and ending the use of private prisons and 
county jails for immigration detention.
    I look forward to working with each of you towards a humane 
future. Thank you for being here today.
    [The statement of Ms. Altman follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Jayapal. Thank you, Ms. Altman. Mr. Baron, you are 
recognized.

                    TESTIMONY OF JORGE BARON

    Ms. Baron. Chairman Nadler, Chairwoman Lofgren, Vice Chair 
Jayapal, Ranking Member Buck, and distinguished members of the 
subcommittee, thank you for the opportunity to address you 
today. My name is Jorge Baron, and I serve as the executive 
director of the Northwest Immigrant Rights Project, a 
nationally-recognized legal services organization that provides 
immigration assistance to over 20,000 low-income people each 
year in Washington State.
    I will focus my remarks on the Trump Administration is 
moving on two different fronts to make it nearly impossible for 
asylum seekers to be released from immigration detention. As a 
way of background, when asylum seekers arrive at our borders, 
they are generally placed in the expedited removal process, and 
they are not even considered for release until they have passed 
a credible fear interview. At that point, depending on their 
manner of entry, they may be eligible for a bond hearing before 
an immigration judge or to ask ICE for release on parole. 
Unfortunately, the Administration is moving to eliminate one 
option and severely undermine the other. In other words, if the 
Administration has its way, asylum seekers will be detained 
indefinitely.
    With regard to bond hearings, it has been settled law for 
decades that asylum seekers who arrive in ports of entry and 
pass a credible fear interview are eligible to seek release on 
bond from an immigration judge while their full asylum case is 
considered. It was settled law, at least until April of this 
year when Attorney General Barr issued a ruling in a case known 
as Matter of M-S-. In that case, Attorney General Barr purports 
to reinterpret the immigration statutes to find that asylum 
seekers are no longer entitled to bond hearings.
    Thankfully, the Attorney General's ruling is currently on 
hold because of the courage of one our clients, Yolany Padilla. 
Ms. Padilla arrived in the United States in May 2018 with her 
6-year-old son with the intention of seeking asylum, and turned 
herself into Border Patrol agents at the southern border. A few 
hours after Ms. Padilla and her son were taken into custody, 
Ms. Padilla's son was forcibly separated from her without 
explanation. Ms. Padilla was then taken a detention center in 
Texas and later transferred by ICE to Washington State.
    Weeks went by, and Ms. Padilla remained detained without a 
hearing, without a credible fear interview that would initiate 
the asylum process, and, most importantly to Ms. Padilla, 
without any contact with her son. And Ms. Padilla was not alone 
as there were over 200 asylum seekers in a similar situation at 
the same Federal prison where the women were being held.
    Working with our partners, we eventually had to file a 
Federal class action case on behalf of Ms. Padilla and several 
other parents who had been detained for weeks without any 
action on their cases. While the case, known as Padilla v. ICE, 
was originally focused on the delays in providing credible fear 
interviews and bond hearings to asylum seekers, after the 
Attorney General's decision Matter of M-S-, the case sought to 
challenge this ruling as well. And in July, U.S. District Judge 
Marsha Pechman decided that Attorney General Barr could not 
take away bond hearings from asylum seekers and put his ruling 
on hold. However, the government has appealed the decision to 
the 9th Circuit, and the risk, therefore, remains that Attorney 
General Barr's decision may still take effect.
    I should note that thanks to the litigation, Ms. Padilla 
was granted a bond hearing, was released from detention, and 
was reunited with her son. But if the Administration has its 
way, future asylum seekers in Ms. Padilla's situation will 
remain detained subject ICE's unreviewable discretion, which 
brings me to the topic of parole. Some detained asylum seekers 
are not eligible for bond hearings, and for them, being granted 
parole by ICE is the only mechanism to obtain release from 
immigration detention. Yet since 2017, the rate at which ICE 
has granted parole to arriving asylum seekers has dropped to 
zero or close to zero in some parts of the country.
    An analysis of five ICE field offices in 2017 found that 
less than 4 percent of parole requests by asylum seekers were 
approved, even though 92 percent of such requests at those same 
offices had been approved just a few years earlier. The New 
Orleans field office of ICE granted parole in only 2 out of 130 
cases in 2018 and none in 2019 as of a few weeks ago, all of 
this despite the fact that ICE contends that it continues to 
abide by the same 2009 policy directive. These practices are 
being challenged in litigation, and a Federal judge has issued 
an injunction to prevent a number of ICE field offices from 
denying parole in violation of its own policy. However, reports 
from the field indicate that even these judicial orders have 
not put a stop to ICE's unlawful practices.
    We have faced similar challenges in Washington State. 
Frequently, requests for parole are simply ignored despite 
multiple attempts at communication with local ICE officials. 
And our staff reported parole denials in cases that present 
compelling circumstances for release and that would've been 
approved in prior years. As just one example, NIRP is currently 
representing a young man who arrived to the United States as an 
unaccompanied child and was initially placed with the Office of 
Refugee Resettlement. He remained in ORR custody until the day 
he turned 18, when he was transferred to the Northwest 
Detention Center where he has spent 18 months in detention all 
while awaiting a decision on his asylum application from USCIS. 
ICE has twice denied a request for parole on his behalf, and he 
remains locked up as of this moment despite his significant 
ties to the community, is not representing any danger, and his 
having no control over when USCIS will resolve his case.
    In closing, given the Administration's attempt to eliminate 
or undermine the ability of asylum seekers to obtain release 
from detention, we call on Congress to move forcefully away 
from the widespread incarceration of immigrants. As immediate 
steps, we urge Congress to pass into law H.R. 2415, the Dignity 
for Detained Immigrants Act, which addresses some of the most 
urgent problems in the immigrant detention system through 
reduced funding for ICE detention and invests in community-
based alternatives to detention programs, and to create a 
robust and effective accountability system that addresses the 
human rights abuses in the immigration detention system. Thank 
you for your attention.
    [The statement of Mr. Baron follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Japayal. Thank you, Mr. Baron. Ms. Schikore.

                 TESTIMONY OF MELANIE SCHIKORE

    Ms. Schikore. Chairman Nadler, Madam Chairwoman Lofgren, 
Vice Chairwoman Jayapal, Ranking Member Buck, distinguished 
members of the subcommittee, thank you for this opportunity to 
share my experiences and recommendations. It is an honor.
    My name is Melanie Schikore, and I'm the executive director 
of the Interfaith Community for Detained Immigrants, known as 
ICDI, a 501(c)(3) in Chicago. It is in the spirit of 
compassionate advocacy that I represent 10 staff and over 300 
volunteers from 16 different faiths and testify about immigrant 
detention and alternatives to detention to inform decision-
making regarding H.R. 2415, the Dignity for Detained Immigrants 
Act of 2019.
    We uphold the dignity and worth of all human beings, 
including ICE officers and county jail staff. All of the 
world's faiths have a way of referencing our interconnectedness 
and our responsibility to care for one another. I've worked in 
a multitude of settings in the realm of immigration since 1990. 
Immigration is the human-made system we create around the human 
need to migrate. When a person's safety, livelihood, beliefs, 
or family are threatened, they leave and seek a place where 
they can do what we all hope to do: live, love, laugh, learn, 
and be part of a safe community. This is not a crime. It is a 
right.
    Five of our six programs align with the current immigration 
system and mitigate the harms of a system modeled after a 
criminal system. On an annual basis, we make over 8,000 
detention visits, monitor over 2,000 court hearings, pray with 
over 3,000 people being deported, assist over 500 people who 
call our hotline upon release, and provide spiritual care for 
1,500 detained children. Our care is vital, but it is a 
spiritual band-aid in a system that needs a complete overhaul 
and redesign. We should not be detaining people at the rate 
that we do, nor in the conditions of the current detention 
system.
    Our sixth program, the Marie Joseph House of Hospitality, 
is an alternative to detention and a model for a different 
future. Here we are free to design care based on the needs of 
human beings. Participants enter this program through ICE or 
lawyer referral by inquiries we make about people we visit or 
from the children centers when a young person ages out, which 
disrupts the standard operating procedure of shackling them and 
taking them to jail on their 18th birthdays.
    Everyone in our care receives individualized case 
management. We create a short- and long-term plan and refer 
them to medical, dental, mental health, legal, educational, and 
vocational services. Participants learn English, how to take 
public transportation, how to budget and open a bank account, 
use a gas stove, bundle themselves for Chicago winter, enroll 
in school, and much more. They live in a supportive community, 
make friends, get work authorization, and find jobs, adjusting 
to life in this country and becoming independent. ATDs cost a 
fraction of what detention does, and they have good compliance 
rates. But what you get for your dollar is even more important. 
No one leaves a detention center better than when they got 
there, but everyone leaves Marie Joseph House better than when 
they got there.
    Forty years ago, we did not have the detention system that 
we do now. In that time, private companies have carved out 
their profit niche on the backs of immigrants. It is not the 
global norm. In the words of one of our participants from 
Ghana, ``I traveled through 14 countries to get here, and the 
only place they shackled me and put me in jail was the United 
States. `Welcome to America,' they said.'' We're part of a 
global network of over 400 organizations and individuals in 90 
countries that advocate for research and provide direct 
services to refugees, asylum seekers, and migrants affected by 
immigration detention.
    How do we justify putting someone fleeing Nigeria because 
his life is in danger for being gay into jail? This ICDI 
participant got asylum, just passed the MCAT, and is being 
solicited by medical schools around the country. How do we 
justify detaining and separating for over 4 months Ms. L. and 
her 7-year-old who were fleeing persecution in the Congo? These 
ICDI participants were reunited in our house. The daughter, who 
speaks five languages, by the way, is in school, and mom is 
learning English and job seeking. Each of our participants has 
a story like this. ATDs are a crucial part of solving the 
brokenness of our immigration system. The vast majority of 
people seeking refuge in the United States do not pose a 
threat. It is a stain on our Nation's history to imprison 
people who are vulnerable, have significant trauma histories, 
and are doing what anyone, what any of us would do if we could 
not live safely or take care of our family where we were.
    Based on the direct experience of ICDI and the immense body 
of literature supporting a humane approach to migration, I urge 
you all to do your part in reforming and reconfiguring the 
current system such that human needs are centered, and 
detention is used minimally and only as a last resort. Lastly, 
I urge you to work to surface the roto causes of migration and 
intervene when always possible, especially when U.S. trade 
policies, political interventions, and consumerism make us 
complicit in the conditions that cause the need to migrate. 
Thank you.
    [The statement of Ms. Schikore follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Japayal. Thank you, Ms. Schikore. Mr. Homan, you are 
recognized for 5 minutes.

                  TESTIMONY OF THOMAS D. HOMAN

    Mr. Homan. Chairwoman Lofgren, Ranking Member Buck, 
Chairman Nadler, Ranking Member Collins, in recent weeks there 
has been a slew of stories and baseless claims that have 
compared U.S. Immigration and Customs Enforcement detention 
facilities to that of notorious Nazi death camps. That 
comparison is 100 percent inaccurate, and it is disgusting to 
compare us to the atrocities of the Holocaust, for God's sakes.
    There has been several attacks on our facilities and 
attacks against our agents and officers. There's also been 
attacks against our contractors that run these facilities for 
us. After more than 3 decades of enforcing immigration law, I 
can assure you that if we do not have the ability to detain 
those that illegally enter our country until they see a judge 
and plead their case, we will never solve the immigration 
crisis on the border.
    Here are a few facts you need to know that I think America 
would be shocked at. Seventy-two percent of everybody in ICE 
are in custody because Congress mandates it. So before you shut 
down immigration detention, you need to look at the law. Nearly 
9 out of 10 people ICE arrests have a criminal history or 
pending criminal charges. They are public safety threats. Our 
contract facilities have the highest detention standards in the 
industry, fact. There's not another State or Federal facility 
that has the detention standards we have. Go to ICE.gov. Look 
up PBNDS-11. I think a lot of taxpayers would be insulted on 
the amount of money we spend and such high standards, highest 
standards in the industry, best facilities in the world.
    Now, forgive me, I didn't think Nazi death camps had 
detention standards. I didn't think they had healthcare. I 
didn't think they had recreation, law libraries, visitation, 
three squares a day. It's just an insulting comparison.
    Well, I really don't think this hearing is about ICE 
detention. This is my third hearing since retirement. I've been 
asked why do I put myself through this to come up here and, you 
know, be insulted like I have the last two hearings. Because I 
love the men and women of ICE and Border Patrol. I know what 
it's like to wear that uniform and stand in that line, and I 
will defend the men and women of the Border Patrol and ICE 
until the day I die. This hearing is just another grandstanding 
political theater to attack our President and this 
Administration and the men and women who serve in this 
Administration.
    I talked about the attacks on the ICE facility. We had 
shots fired at our facility in San Antonio, barely missing an 
agent, almost killing him. We had a detention facility that was 
attempted to be burned down with 1,400 people in it, 1,300 
which are immigrants waiting for their detention. I didn't hear 
one thing from the Democrat leadership about those issues. I've 
heard the Speaker of the House, Nancy Pelosi, make the comment 
that ICE agents terrorize innocent immigrant communities. ICE 
doesn't arrest immigrant people, innocent immigrants. ICE 
arrests people who are here in violation of Federal law, the 
law that you enacted. They enforce the law.
    But there's people in Congress that call for the 
abolishment of ICE because they don't like what ICE does. ICE 
is merely enforcing the laws you enact. If you don't like it, 
change the law. You're the legislators. But don't vilify the 
men and women of ICE and the Border Patrol. Nancy Pelosi said 
yesterday the President is not above the law, but she thinks 
illegal aliens who have a final order issued by a Federal judge 
is above the law because when the President announced a 
national operation to seek those out who had due process and 
been ordered removed, she thought that was a terrible thing to 
do. She went on national TV and talked about how to evade ICE 
officers, how to not open the doors. So apparently they're 
above the law because when a Federal judge issues a final order 
after a due process, it means nothing.
    You got Ocasio-Cortez who calls our places concentration 
camps. You got Congressman Yvette Clarke who stood in front of 
an ICE building and called us the Gestapo. You got Congressman 
Escobar, whose name tag is over there, but she's not here. She 
had a press the other day, 2 weeks ago. She compared ICE agents 
to monsters under children's beds. And we wonder why ICE agents 
are being attacked and our facilities being shot at and being 
burned down. We wonder why spouses and children of Border 
Patrol are bullied in schools and churches.
    Last hearing I was called a racist and a bigot because I 
enforced the laws that you enacted. If I'm a racist and bigot 
for enforcing the laws that you enacted, what's that make you? 
You wrote the law, but rather than changing the law and making 
sense of the law, it's easier to call for the abolishment of a 
Federal law enforcement agency. The men and women and ICE and 
Border Patrol are national heroes. They're American patriots by 
the very fact they put a gun on their hip every day and wear a 
Kevlar vest. That is your tools of the trade. They put their 
lives on the line for this country every day. They deserve 
better than these attacks from our congressional 
representatives.
    I've buried many Border Patrol agents, I've buried ICE 
agents, and those kind of attacks dishonor their memory. It 
dishonors their family. This world is upside down when the 
people who knowingly violate the laws are the victims and those 
who enforce the laws are the bad guys. I'm here to answer your 
questions. I hope this is a meaningful discussion. I doubt any 
legislation will come out of this because it's yet another 
hearing on political theater against our President.
    [The statement of Mr. Homan follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Japayal. Thank you, Mr. Homan. Sheriff Jenkins, you are 
recognized for 5 minutes.

                TESTIMONY OF CHARLES A. JENKINS

    Sheriff Jenkins. Good morning. Mr. Chairman, Madam 
Chairwoman, ranking members and members, I want to offer my 
perspective from local law enforcement on the importance of ICE 
detention, honoring ICE detainers, local cooperation with ICE, 
and how that cooperation really enhances and improves local 
public safety. We're at a crisis point in this country. 
Congress needs to take serious measures right now in the 
enforcement of our immigration laws both at the border and on 
the interior. These two missions have overlapping serious 
impacts to public safety. One of the critical pieces is 
detention facilities.
    We have chaos on the southern border, criminal and gang 
infiltration of every city, county, and community in the United 
States, and sanctuary jurisdictions that have placed their 
citizens at risk by failing to cooperate with ICE or even 
recognize ICE. The hostility against ICE has to stop and 
demonizing has to end. Detention and expeditious removal of 
criminal aliens are key components of overall public safety. It 
is an imperative that ICE has access to suitable detention 
facilities throughout the United States.
    From my perspective, the infiltration of criminal alien 
crime and criminal gangs, such MS-13, across our open borders 
and in our communities has severely endangered the public 
safety of every city and every county in America. There's been 
a level of violence never before experienced in this country. 
This situation would be much worse without ICE doing their job. 
We have allowed the heroin and opioid trafficking networks to 
establish themselves across the entire country through open 
borders and sanctuary policies with cartels continually 
infusing heroin, fentanyl, and other dangerous drugs into 
America.
    Nowhere is it more evident than my home county of Frederick 
in Maryland just an hour away from here where we've seen in the 
past 7 years record numbers of both fatal and nonfatal 
overdoses. For 11 years, my office has partnered with ICE, the 
287(g) Program, and the Intergovernmental Services Agreement, 
IGSA Housing, Housing Program. These programs are both examples 
of the importance and effectiveness of adequate detention beds 
for ICE.
    The IGSA Agreement provides detention space in the local 
jail or prison and provides ICE with detention beds to keep 
those criminals off the street and not be released back into 
our communities. The 287(g) Partnership Program assists ICE. It 
facilitates a process within the confines of the jail. No 
actions are taken on the street whatsoever. No questions are 
asked regarding immigration status. We have trained 
correctional officers who work the program under the direct 
supervision of ICE, close supervision and oversight.
    And I reemphasize that everything occurs within that jail 
facility, nothing on the street. These local agreements are 
critical and have had the most direct on local public safety. 
They ensure that after criminals are adjudicated and sentences 
are served, that those criminals with detainers are not 
released back onto the streets of Frederick County to commit 
what are often more serious and often violent crimes. Gang 
membership, by the way, should be an automatic removable 
offense and nullify any DACA protection.
    The 287(g) Program has been very effective over the past 11 
years in removing criminal aliens from Frederick County. Over 
11 years, there have been 1,692 detainers lodged with 1,536 of 
those detainers served, and those individuals placed into 
removal. Included in that number are 110 transnational criminal 
gang members, the majority being MS-13. In Frederick County, 
for 5 consecutive years, we have experienced significant 
reductions in Part I or serious crime. We're now in our 6th 
year. Sanctuary policies across this country have to be 
stopped. You're going to have to eliminate and deny all grants 
to sanctuary grants, eliminate the catch-and-release loopholes, 
and enforce asylum policies to the letter.
    I want to mention my neighboring county, Montgomery County, 
which has recently declared being a sanctuary county. In the 
past, I'd say, year, they've had nine rapes of young children. 
They've had a 67 percent increase in MS-13 crime over the past 
year. Crimes that have shocked the conscience of this Nation 
are continuing to happen, and they're totally unnecessary and 
avoidable.
    I want to talk about that jails and prisons must simply 
cooperate with ICE to hold a criminal alien, and I do encourage 
that you fund and promote more 287(g) programs. I want to 
briefly touch on the detention standards some of you mentioned. 
The Federal detention standards are the highest standards out 
there. We actually meet all those standards and beyond. We just 
recently underwent an ODO inspection a week ago before I came 
down here. Nothing in our jail is subpar. Those higher 
standards are met, and the standards are higher than under 
President Obama. So you have an obligation to Americans, first 
and foremost, before any obligation you might feel you have to 
the people in this country illegally.
    Americans are frustrated and tired of the open border issue 
and not enforcing the law. This is all about the rule of law, 
and I encourage you to support President Trump in his efforts 
to move this issue forward, both the interior enforcement and 
the border crisis. Thank you.
    [The statement of Sheriff Jenkins follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Japayal. Thank you, Sheriff Jenkins. We will now 
proceed under the 5-minute rule with questions, and I will 
begin by recognizing myself for 5 minutes.
    It occurs to me in listening to the compelling testimonies 
of our first three witnesses that there are two stories being 
told here. And one is the story of immigrants being murderers, 
criminals, rapists, people to fear, and the other the story of 
countless thousands of people who are being put into 
immigration jails and incarcerated when they are here with no 
charge, no conviction, and just awaiting their immigration 
process to continue. In the last few years, the Trump 
Administration has gone around Congress and has taken millions 
in funding for crucial functions like hurricane preparedness to 
unlawfully expand detention. The Trump Administration would 
like to have you believe that this is necessary, but I do not 
believe that is the case.
    Mr. Baron, your organization, the Northwest Immigrant 
Rights Project, provides legal services to people detained at 
one of the largest detention facilities in the country, the 
Northwest Detention Center. What does the detained population 
there look like? Who are the vast majority of people, the tens 
of thousands of people that NIRP has served over the many years 
in service? Tell us about that detained population. Who are 
they?
    Ms. Baron. Yes, most of the people that we serve and most 
of the people who are detained at the Northwest Detention 
Center are asylum seekers who have been detained. That 
sometimes surprises people because there actually have been 
people who have been detained at the southern border by Customs 
and Border Protection and then brought up to the Northwest 
Detention Center to undergo their asylum hearings. In most 
cases, they have already passed their credible fear interview, 
meaning that they have already been screened and found to have 
a significant possibility of qualifying for humanitarian 
protection here in the U.S. And those are the majority of the 
people who are in our detention center.
    Ms. Jayapal. Thank you. Ms. Altman, in your role as policy 
director at the National Immigrant Justice Center, is that 
consistent with national trends that you see? Who do you 
typically see making up the vast majority of people in 
detention?
    Ms. Altman. It is consistent, Congresswoman. As of the most 
recent data released by ICE, about 65 percent of those in 
detention were transferred from the border, which is almost 
exclusively an asylum-seeking population, 35 percent taken from 
communities inside the United States.
    Ms. Jayapal. And we have three witnesses here today who are 
survivors of the U.S. detention system. I am so sorry on behalf 
of our government for what you have experienced, but I am glad 
that you are here today to courageously share your stories. Ms. 
Saavedra Roman, ICE detained you for over a month, even though 
you have legal status under DACA, correct?
    Ms. Roman. Yes, ma'am. DACA was current during that time.
    Ms. Jayapal. So you had current legal status, and yet you 
were detained as if you were a prisoner, as you said. Mr. 
Davydov, ICE detained you for 46 days, even though you were 
complying with your court proceedings and you had a pending 
asylum case, a case which you just won a few months ago, 
correct?
    Mr. Davydov. Yes, it is correct.
    Ms. Jayapal. And, Ms. Engochan, you came to the United 
States seeking asylum, and ICE detained you for 6 months, 
releasing you after you were granted asylum, correct?
    Ms. Engochan. Yes, over 6 months.
    Ms. Jayapal. Ms. Altman, according to the 2019 Senate 
Appropriations Committee report, ICE continues to spend at an 
unsustainable rate. The report proposes that, ``In light of the 
committee's persistent and growing concerns about ICE's lack of 
fiscal discipline, whether real or manufactured, and its 
inability to manage detention resources within the 
appropriations made by law, without the threat of anti-
deficiency, the committee strongly discourages transfer or 
reprogramming requests to cover ICE's excesses.'' In light of 
this report, would you recommend that ICE continue to be given 
appropriations that are outside the ``appropriations made by 
law?''
    Ms. Altman. I would certainly recommend against that and 
strongly recommend that DHS' transfer and reprogramming 
authority be restricted into the ICE enforcement and detention 
account. And it is warranted by a history now that we know at 
least 4 years in a row of overspending what Congress has 
provided, and then taking accounts, as you mentioned, money 
from other priorities, such as FEMA, to make up for it.
    Ms. Jayapal. Ms. Schikore, what is the cost of detention 
compared to the cost of alternatives to detention that could be 
used for people that have never been convicted, much less 
charged with a crime?
    Ms. Schikore. The cost difference of ATDs?
    Ms. Jayapal. Yes.
    Ms. Schikore. As I mentioned, ATDs cost a fraction of what 
detention costs. Studies put the cost between $12 and $50 a day 
for ATDs versus $70 to $200 a day for detention. And as I 
mentioned in my testimony, you have to ask what are you getting 
for this money.
    Ms. Jayapal. And how have other countries made use of ATDs? 
What are some of those examples of successes, and what best 
practices can be applied?
    Ms. Schikore. The International Detention Coalition has 
identified over 250 examples of alternatives from 60 different 
countries. One that I could highlight is the Toronto Bail 
Program in Canada. This program has been operating since 1996. 
It is funded by the government, and it relies on strong case 
management, support, information, and advice, and supervision. 
The case managers also identify and address issues such as 
substance abuse, drug addiction, mental health needs, as our 
program does. This program only costs Canada $10 to $12 per 
person compared to $179 for detention, and has maintained a 
retention rate from 94 to 96 percent.
    Ms. Jayapal. Thank you, Ms. Schikore. My time has expired. 
And with that, I recognize the gentleman from Arizona, Mr. 
Biggs.
    Mr. Biggs. Thank you, Madam Chair, and I will just say that 
this hearing is meant to be on the expansion of ICE facilities 
and ICE detentions. So I just want to talk about some of the 
things that actually happen in ICE detention, at least in one 
facility. They have awarded 2,779 GEDs and high school 
equivalency degrees, awarded 9,131 vocational training 
certifications, and awarded 8,842 substance abuse treatment 
program completions in the 2018 time period. That is remarkable 
by any standards. By any standards.
    But we are not spending our time talking about any of this 
today. We have had some testimony. I want to say thank you, Mr. 
Homan and Sheriff Jenkins, for being here. I thought your 
testimony was compelling as well. And I have to say, and I am 
going to bring it up, and I am not trying to defend. I just 
want to talk about facts. The DACA Program is not a change of 
status from illegal to legal. What it is is deferment actions 
that provides use of temporary status to be in this country 
illegally. So that works out that way.
    But DACA is very clear. You can't leave the United States 
without prior authorization. To do so is a violation of DACA 
and, in turn, actually has the potential to actually change 
your status. And so I'm sorry you were detained, but that is 
the law. I mean, this is a rule of law country. That is what 
makes America different. Those protections preserve Americans' 
freedom throughout the world is the rule of law in and of 
itself.
    Mr. Davydov, I am glad you got asylum. I am okay with that. 
But you said in your testimony, in your written, I came on a 
tourist visa with the intention to stay in the U.S. Guess what 
that is? That is a violation of the law. And then you waited 
until that visa expired and applied for asylum. Guess what that 
is? That is a violation of law. That is what it says in your 
statement. That is what you said today. So even though you were 
granted, it is unusual, I think, to say I can break the laws of 
this country twice, but I want to asylum to be here. I am fine 
with you being here, but the point is you violated the law 
twice.
    The testimony and the evidence is clear and the data is 
clear, 9 out of 10 people that are in ICE custody have some 
kind of criminal background. That is why they are there. ICE is 
out there, but they are criticized. We have people saying let's 
defund ICE. We have people on this panel today say let's reduce 
the funding for ICE.
    ICE is under tremendous pressure because someone mentioned 
the astonishing growth in ICE detentions. Well, you know what 
caused that? How about 148,000 people rushing the border in 1 
month in this country, 1 month on the southern border. I live 
in a border State. I grew up in southern Arizona. I have been 
down to the border, and I have visited facilities a half a 
dozen times, I believe it is, this year. I have spent weeks 
literally on the border accumulated this year, and in ICE 
detention facilities and other holding facilities.
    I know what goes on, so when you say go down, I am there. I 
am there. I see it. I talk to people almost every day, whether 
they are ranchers, or how about this one? How about the Steve 
Ronnebeck family? Explain to them, Grant killed by an illegal 
alien. Shot point blank. The man was deported twice. Mary Ann 
Mendoza who lost her son, Brandon. Killed by an illegal alien. 
We don't hear about that.
    How about this? We are talking about 287(g), Sheriff 
Jenkins. How about this? You got Santa Clara County, 
California. Guess what? Guess what we just have here? What you 
have is on Monday, ICE captured a violent criminal and 
convicted rapist who was a fugitive for a year and a half. The 
reason he was a fugitive is because Santa Clara County refused 
to honor an ICE detainer in February of 2018, even though he 
was arrested. Why was he arrested? For not registering as a sex 
offender. These programs put Americans in jeopardy.
    Mr. Homan, is there anything you would like to respond to, 
what you have heard today?
    Mr. Homan. Yeah, I would like to respond to Acting Chairman 
Jayapal and your comment about the Trump Administration moving 
money around for more detention beds. I would like to remind 
you under the Obama Administration we did it most of the years 
he was President. We moved money around DHS. It is called 
reprogramming. We did that under the Obama Administration, and 
I don't remember any hearings on that. And also I would like to 
remind you that under the Obama Administration, I mean, you are 
quick to point out the cages were built under the Obama 
Administration. I was there. Family detention. We had 100 
family beds. Under the Obama Administration we built 3,000 
more.
    So when there was a surge in Fiscal Year 2014 and Fiscal 
Year 2015 on the border, Congress was quick to give all the 
money we needed to build detention facilities, get 
transportation contracts. We reprogrammed money the majority of 
the years he was President. That was fine. Under the Obama 
Administration, Fiscal Year 2012, we removed 409,000, people of 
what was removed last year. There was no hearings on that. So, 
you know, if this is about transparency, let's be factual about 
it.
    Ms. Jayapal. The time of the gentleman has expired. Since 
you did address some comments at me, I will just say that I 
didn't like it under the Obama Administration either. In fact--
--
    Mr. Homan. Well, be honest with the American people.
    Ms. Jayapal. Excuse me.
    Mr. Homan. You can't point out faults in the Trump 
Administration when it happened under the Obama Administration.
    Ms. Jayapal. Mr. Homan.
    Mr. Homan. That is dishonesty. It is pathetic, and it is 
sad.
    Ms. Jayapal. Mr. Homan, I control the time, and I am the 
chairwoman of the committee. Thank you for respecting that. I 
didn't like it under the Obama Administration, and I will 
remind you, Mr. Homan, that you also testified before Congress 
in support of the Obama's priorities and enforcement program 
before the Senate Judiciary Committee on May 19th, 2016, which 
had a very different approach.
    Mr. Homan. Well, can I respond to that?
    Ms. Jayapal. With that----
    Mr. Homan. Can I respond to that?
    Ms. Jayapal. No, you may not.
    Mr. Homan. Of course not.
    Ms. Jayapal. With that, I recognize the chairman of the 
Judiciary Committee, Mr. Nadler, for 5 minutes.
    Chairman Nadler. Thank you. I want to make a couple 
comments before I start the questions. We have heard about the 
overcrowding, about the lack of adequate funding, about the 
overcrowding, about how many people are kept in detention, and 
how necessary it is to protect the public safety.
    We heard from three witnesses here. We heard from Ms. 
Saavedra Roman. She was a DACA recipient. She was a threat to 
nobody. Her employer made a mistake and said as a flight 
attendant she should go to a foreign country. It wasn't her 
fault. And she was kept in detention for 38 days, wasting 
money, not to mention her liberty. We heard from Mr. Davydov 
that he fled for his life. Yeah, he may have come here under 
false pretenses. That is what asylum seekers fleeing for their 
life, they have to do. He was granted asylum because our courts 
recognized the threat to his life, and we heard how in custody 
his medical needs were ignored. He got infections because HIV 
medications were not provided, and there was a total lack of 
regard by ICE for his medical condition.
    So we heard from Ms. Engochan who fled for her life from 
Cameroon and was granted asylum by our courts, recognizing the 
threat to her life. She was kept in custody for 6 months. We 
also heard from Mr. Davydov that while he was in custody, he 
missed an asylum hearing or a credible fear hearing, and 
apparently ICE doesn't allow people to go to their asylum or 
credible fear hearings? I am not sure how he got asylum anyway, 
but that certainly risked it.
    So I am unimpressed when I hear from Mr. Homan about the 
good, and we heard about the terrible conditions, the lack of 
heat, the lack of decent food, the terrible crowding, we have 
heard that before. So I am unimpressed when I hear from Mr. 
Homan about how wonderful the facilities are.
    Ms. Schikore, I want to discuss alternatives to detention. 
We have heard a lot from the Administration about how 
individuals in removal proceedings do not show up to their 
court dates when they are in an alternative to detention, like 
ankle monitors and phone check-ins. At the same time, I have 
seen data that shows how compliance rates are high and even 
higher, around 95 percent, when an individual actually has an 
attorney. What is the likelihood someone will show up to court 
under alternatives to detention as compared to in detention?
    Ms. Schikore. In our particular program, we have had full 
compliance, and this includes someone----
    Chairman Nadler. One hundred percent.
    Ms. Schikore. A hundred percent in our program, and this 
includes someone who ultimately was deported who turned himself 
in. Across the board, the literature shows, the research shows 
that compliance rates are high. Community-based programs 
address the factors that make compliance difficult, such as 
substance abuse, drug addiction, mental health issues, and 
things like a lack of transportation, a lack of understanding 
of court proceedings, and legalese. In Chicago we had an issue 
where there was a lack of signage in the courts, so people 
couldn't understand it and were not making their court dates. 
And then there is also the concern about wrong court dates and 
the use of fake court dates on placeholders when people get 
notice. That is a big problem for people showing up on time. 
But across the board, the alternatives have very high 
compliance rates.
    Chairman Nadler. High compliance rates. Thank you. Ms. 
Altman, I want to turn to you. Could you help us address some 
of the issues that have been mentioned related to immigrants 
and crime and deportations and crime rates? My understanding is 
that the data shows no correlation between deportations and a 
reduction in crime rates. Is that correct?
    Ms. Altman. That is correct, Congressman, and I thank you 
for your comments at the outset. The public safety arguments 
today attempt to paint immigrants in broad strokes. I agree 
that they further racist tropes. Most importantly, though, they 
are specious. They are not based on the data. ICE's own data 
disproves them in addition to the numerous studies that you 
mentioned that show that there is absolutely no correlation 
between place of birth or immigration status and crime rates in 
the United States.
    We actually have a whole body of new evidence that just 
came out this summer, very robust evidence out of the 
University of California-Davis showing that programs like 
287(g) and Secure Communities the sheriff trumpets, programs 
that increase deportations and detentions in community, have 
absolutely no impact on crime rates, and, in fact, showed a 
very marginal increase in crime rates. On the other hand, we 
know from, again, numerous studies that what these increased 
detentions and deportations do is to destabilize communities, 
to disrupt families, to take breadwinners away from their homes 
leading to homelessness, food insecurity, and numerous problems 
with outcomes of children who are being raised now without a 
mother or father.
    Chairman Nadler. So the propaganda about the connection 
between immigrants and crime is just that, propaganda, and that 
there is no evidence or considerable evidence to the contrary 
that immigrants, whether legal or otherwise, commit crimes at a 
lower rate, equal or lower rate than people here to start with? 
Is that correct?
    Ms. Altman. That is correct. It is for political purposes, 
sir.
    Chairman Nadler. Thank you very much. I yield back.
    Ms. Jayapal. The time of the gentleman has expired. I now 
recognize the gentlewoman from Arizona, Mrs. Lesko, for 5 
minutes.
    Mrs. Lesko. Thank you, Madam Chairman. Thank you, all of 
you, for being here today. One of the witnesses, I think 
Melanie Schikore, if I said your name right, said, ``We really 
need to address the root causes of migration,'' people coming 
here, and I couldn't agree more. In fact, the Republicans on 
this committee, including myself, I have six bills myself that 
have been sent to the Judiciary Committee that I believe will 
get to the root cause of the problem and help solve the border 
crisis. And I hope that Chairman Nadler will hear those bills 
so we can get to the root cause of the problem.
    I live in Arizona. I recently toured the Eloy, Arizona 
Detention Facility there. I went inside a cell. I saw what was 
happening with the health checkups, and I also sat down and ate 
lunch with the detainees, and it was like cafeteria food, kind 
of like from school. And I have to tell you, I didn't see all 
these egregious things that have happened, and so obviously if 
there are bad things happening, we need to correct them.
    And so, Mr. Homan, you know, the inspector general has 
certain recommendations when there was problems in detention 
centers. And do you know if ICE has agreed to fix those 
problems and what is the status of fixing those problems?
    Mr. Homan. Yeah, when the inspector general has a finding, 
ICE has a certain amount of days to correct that finding and 
return the report to the IG. So, yeah, there are instances 
where there are failures, but we got to remember, you can point 
out six, seven cases here all day, but 400,000 people come 
through our system a year. And my testimony, even though some 
people may be unimpressed with it, is factual. The highest 
detention standards in the industry. Highest. And Congressman--
--
    Voice. [Off audio.]
    Mr. Homan. Yeah, made a statement earlier about, you know, 
how many people got GEDs, but no one here is talking about how 
many lives we saved in immigration detention. Many times we are 
the first doctors these people see. They come to us in bad 
shape after making a terrible journey. Many times we provide 
the first doctor they have ever seen. In our family residential 
centers, we provide the first vaccinations for these children.
    Mrs. Lesko. Well----
    Mr. Homan. And as far as the criminals have no impact on 
crime, removing 127,000 criminal aliens from the United States 
certainly has an impact on less crime in the United States. And 
as far as illegal aliens committing less crimes, I don't know. 
I know the Cato study everybody once referred to is a flawed 
study because it wasn't based on data. It wasn't based on State 
and local arrests because most crimes are State and local 
arrests.
    Here is the question that needs to be answered. How many 
crimes could have been prevented if the illegal alien wasn't 
here? If we had true border security, we could prevent a lot of 
crimes from happening. So it isn't who commits more. It is that 
this series of crimes was certainly preventable if we secure 
our border.
    Mrs. Lesko. Well, and thank you. And so, you know, I 
basically want to say the facilities I have been to, they were 
all clean, well maintained. I have not only gone to a detention 
center, I went to a facility where they house unaccompanied 
children. That was a very nice facility. We are doing 
education. And if there are problems, they need to be addressed 
just like in any agency. And so my understanding is that ICE 
has said, yes, we will follow the recommendations by the 
inspector general and have worked on correcting them.
    I want to applaud the men and women that work for ICE and 
our Customs and Border Patrol. Unfortunately, you are right, 
they have been villainized. Now, are there cases that may be 
bad? There are cases that are bad in any type of agency. We 
need to address them. But let's please not villainize our law 
enforcement. They are doing the best they can under a very huge 
crisis problem. And I agree, we need to get to the root of the 
problem. We need to reform our immigration laws because right 
now they are an incentive for all these people to have to 
travel thousands of miles from Central America to come here, 
that is what we need to get at.
    And I hope, Mr. Chairman, that you will hear our bills in 
committee. And with that, I yield back my time.
    Ms. Jayapal. The gentlewoman yields back. The gentlewoman 
from California is recognized for 5 minutes.
    Ms. Lofgren. Thank you. I think this is a useful hearing, 
and I have got to say that asylum is part of American 
immigration law. It is not illegal to apply for asylum. Having 
said that, I think obviously there are issues going on in 
Central America that have led people to flee, and it would be 
very useful for the United States to play the lead to try and 
help those countries stabilize so that people don't have to 
flee for their lives. Having said that, we have a lady here 
today who fled for her life from Cameroon, so there are people 
who are seeking political asylum from all over the world, and 
our laws provide for that because we have been a beacon of hope 
and a sign of freedom, an example for the world, for many 
years.
    Now, I want to talk to you because you live in my district, 
Mr. Davydov. I want to thank you for coming to tell your story. 
As someone who is HIV positive, you obviously need specific 
medical attention and care, which you mentioned. Can you 
describe the medical treatment you receive or didn't receive in 
a little more detail in ICE detention?
    Mr. Davydov. Sure. I received my prescribed medicine, but I 
received it in California after I told them I needed it. But 
the problem is, the HIV treatment is just a part of the whole 
thing.
    Ms. Lofgren. Just a part of it?
    Mr. Davydov. Yes, and since I didn't know the cause of my 
infections, either it was stress or, like----
    Ms. Lofgren. You cannot, your immune----
    Mr. Davydov. Yes, my immune system showed some signs of 
infection, and it was the problem, my secondary infections, 
then they started manifesting. I could not get treatment or a 
doctor who could even tell me anything about that. And in some 
cases, I was waiting for many days to just be seen by a doctor.
    Ms. Lofgren. You know, I just to want to mention a concern 
that I have. In December of 2017, the Trump Administration 
ended what had been a presumption that if you are pregnant, 
that you will be released from custody because of the 
vulnerability you have as a pregnant woman. That is no longer 
the case. And so we have got pregnant women in custody who are 
seeking asylum, and the number of miscarriages has doubled. We 
have even stillbirths in custody. And I think that I would just 
say that is something that ought to be revisited because to 
have miscarriages or stillbirths is just not the right thing. 
And this policy does promote that, and it serves no one's 
interest to have that occur.
    I would just say further, I have also visited these 
facilities, and I know that when I have visited facilities, 
there is a scurry around in advance to clean things up a little 
bit before you come. I think it is telling that we have had an 
employee of the Department of Homeland Security in the Trump 
Administration advising that there are serious problems in ICE 
custody provisions, a report in December of 2017. You are 
right, Mr. Homan, you have a chance to respond and to improve. 
But that was followed by a similarly damaging report in 
September of 2018 from the Inspector General of the Department 
of Homeland Security. And, again, just this June we had what 
was transmitted as an emergency report from the Department of 
Homeland Security about conditions in confinement.
    We have a problem here in how individuals are being treated 
in these facilities. I think there is a management problem 
here. I mean, to think that we would have this young lady, a 
flight attendant, held at tremendous government expense, she 
doesn't pose a threat to anybody, or Mr. Davydov, he doesn't 
pose a threat to anybody, or the gentlelady from Cameroon, she 
doesn't pose a threat to anybody. And we spent a whole lot of 
money keeping them chains as if they were a threat. It is a 
waste of money. It is a waste of the taxpayers' money in 
addition to being very traumatic for the individuals involved.
    I think we need to revisit how we are spending our money, 
and we are wasting huge amounts of the taxpayers' money locking 
people up who pose no threat and really not honing in on things 
that are important. You know, I realize there can be a 
circumstances when someone does need to be detained. You know, 
we all know that that is the case. But to spend our resources 
for this flight attendant was really a waste of taxpayer's 
money. I yield back, Madam Chair.
    Ms. Jayapal. I thank the gentleman for yielding, and I now 
recognize the gentleman from Florida, Mr. Steube, for 5 
minutes.
    Mr. Steube. Thank you, Madam Chair. There is a crisis at 
our southern border. And just for this year--I had staff pull 
the number--just for this year, and this does not include 
September numbers, just for this year, 811,000 illegal 
immigrants have been detained at the southern border. Now, let 
me put that in perspective for you. That is larger than my 
entire congressional district. So an entire congressional 
district of people, which I represent nine counties in the 
State of Florida, nine counties in the State of Florida, more 
than that population have illegally entered our country.
    In Fiscal Year 2018, 92 percent of aliens in ICE custody 
were either convicted criminals, had pending criminal charges, 
or were recent border entrants, and the cite is on ICE's 
website. It is the Fiscal Year 2018 report. All you have to do 
is go and look. That is what the report states. Yet we sit here 
and we do absolutely nothing to address this crisis at our 
border. I see people here who appear to have children or family 
members that were killed by illegal immigrants, yet we are 
doing absolutely nothing to address illegal immigrants that are 
coming into our country and killing our own very citizens.
    I think Mr. Homan said it best. Our country is upside down. 
We have those breaking our Federal laws being characterized as 
victims, and those who are enforcing our laws, the laws that 
this body created, being demonized as villains. And thank God 
we have a President willing to take on this crisis. Thank God 
we have men and women in our ICE and in our law enforcement 
that are willing to stand up and swear an oath to our 
Constitution to serve and protect our Nation and our country.
    I don't know. My father is a retired sheriff. My brother is 
a deputy in a local sheriff's office in Manatee County, 
Florida. He has served for 18 years. And I have frequent 
conversations with them. I don't know how Americans today would 
be willing to serve in law enforcement. During the time that my 
dad went in 40 years ago, law enforcement officers were 
respected, they were revered, and that just isn't the case 
anymore. I don't know anybody that would be willing to serve 
right now given the fact that law enforcement officers are 
specifically targeted to be killed. They are being, as Mr. 
Homan elucidated and talked about at our ICE detention centers, 
shot at. Their families are being threatened. And these are the 
people that simply want to serve our country, serve our Nation, 
and serve our community in the defense of our laws, and they 
are being demonized. And it is a sad state of affairs in our 
country that we are at this place.
    I want to thank Mr. Homan for his testimony today and the 
sheriff today for coming here today. I would yield the 
remainder of my time to Mr. Homan. You were cut off earlier, 
and you weren't able to respond to a question that the 
chairwoman gave to you. So you have 2 minutes to respond to 
that question.
    Mr. Homan. Well, sir, I was supportive of President Obama's 
policies. I supported many of his policies. But we got to 
remember, I was a career law enforcement officer. My job is to 
executive a mission within the framework provided me. So when 
the White House or the Department of Homeland Security issues a 
priority, my job isn't to question it. My job is execute it 
like I am executing the mission of this President.
    And President Obama gave me a presidential rank award, the 
highest award available to a civilian because I think I did my 
job pretty good. I think we saved many, many lives in ICE. And 
a couple of things I agreed with him on. The Priority 
Enforcement Program. It was the only game in town. We were 
locked out of jails, so the Private Enforcement Program gave us 
access to jails so at least we could get the felons. That was 
better than nothing.
    And Secretary Jeh Johnson, who I respect greatly, gave me a 
seat at the table and we talked about all the executive 
actions. He gave me a seat at the table and said here is what 
we are proposing, what are your thoughts on it. He gave me 
input. Now, I didn't win most of those arguments, and if 
Secretary Jeh Johnson was sitting here, he would tell you we 
disagreed on a lot of things. But I was grateful that the 
Administration gave me a seat at the table at least so I could 
hear things that were coming.
    So the Obama Administration wasn't all bad. He gave us 
unlimited money, unlike you are fighting today, to give us the 
detention facilities we need, give us the policies we need. 
Family detention and 100 beds. They gave us 3,000 more. So, 
yeah, President Obama, I agreed with a lot of things he did. I 
didn't agree with everything. I didn't agree with most, but I 
agreed with a lot of what he has done. So, again, but when I 
became ICE director, I came back from retirement because this 
President, President Trump, had it right across the board from 
day one. From his speech in Arizona, he was right on the money 
every step of the way.
    So I thank you for your comments because ICE agents and 
Border Patrol agents are national heroes. They are American 
patriots. They leave the safety and security of their home 
every day to defend this Nation, so thank you for those 
comments. We got to remember, these Border Patrol agents, they 
take sicknesses home to their own families every day. These 
Border Patrol agents brought toys from their own children to 
the family residential centers so these children have something 
to play with at the Border Patrol stations. These are moms and 
dads, too. They didn't hang their heart at the foot of the door 
when they put that badge on. These are American patriots and 
need to be honored rather than vilified by many members of 
Congress.
    Ms. Jayapal. Thank you. The time of the gentleman has 
expired.
    Mr. Homan. Ma'am, everybody else went over 5 minutes.
    Ms. Jayapal. Excuse me, Mr.----
    Mr. Homan. Can I get 1 more minute. One more minute, 
please?
    Ms. Jayapal. I am sorry, Mr. Homan. The time of the 
gentleman has expired. Before I got to the next witness, 
without objection, I would like to make the following documents 
part of the record: a statement from the ACLU, a statement from 
Asian-Americans Advancing Justice, a statement from the 
American Immigration Council, a statement from Al Otro Lado, a 
statement from the Center for Victims of Torture, a statement 
from Detention Watch Network, a statement from Friends 
Committee on National Legislation, statement from the 
Government Accountability Project, from the Interfaith 
Immigration Coalition, from the National Immigration Forum, 
from the Southeast Asia Resource Action Center, from United We 
Dream, and a statement from an impacted individual, Abdikadir 
Abdulahi Mohamed.
    [The information follows:]
      

                      REP. JAYAPAL FOR THE RECORD

=======================================================================

      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      

                      REP. JAYAPAL FOR THE RECORD

=======================================================================

      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Jayapal. And with that, I now recognize the gentlewoman 
from Texas, Ms. Garcia, for 5 minutes.
    Ms. Garcia. Thank you, Madam Chair. And first I want to 
begin by associating myself with the opening remarks of the 
chairman when he pointed out that it is simply not true that 
immigrants commit more crimes than native-born Americans. I 
agree with him. The statistics show just quite the opposite. 
Secondly, I want to thank the three witnesses today that are 
here to share their stories. I just cannot imagine being held 
in detention even 1 day, and I know that most of you have spent 
many, many more days. And I was particularly moved by the 
written statements of our friend from----
    [Disturbance in hearing room.]
    Ms. Garcia. Madam Chair, if I can restore some of my time.
    Ms. Jayapal. Order. Order. I will advise the individuals in 
the audience that you are not allowed to speak, and you are not 
allowed to make any demonstrations. Thank you. The gentlewoman 
is recognized. Please restore her time.
    Ms. Garcia. Thank you. I was particularly moved by the 
comments and the written statement by our friend, Ms. Engochan, 
where she describes the detention center as ``a house of 
tears.'' ``A house of tears.'' Just imagine being there and 
really not having been convicted of any crime. So you're not a 
criminal, and you describe in your notes, ``What is really most 
troubling about some of these detention centers, that they are 
really more incarceration centers than detention centers.''
    I personally have visited over 10 detention facilities and 
ORR facilities, and I have seen what is going on in some of 
these facilities. And I must say that I disagree with my 
colleague from Arizona. I don't see school cafeteria-like food. 
In fact, I joked at one center and asked who has got the 
contract for the frozen burritos because it seems like that is 
the staple in almost every single one of them. Or the one from 
the Ramen noodles because that seems to be a staple.
    And for my colleagues who say that we are doing nothing, 
they seem to forget that just yesterday we passed a bill out of 
the House that not only creates an ombudsman, but also provides 
for more training and some more assistance for some of the 
officers. And then we also passed a bill that set humanitarian 
standards for medical needs and human needs that Dr. Reese 
filed that we passed before the recess. So we are doing 
something.
    But the point is, it is not enough, and for me, I think it 
is more concerning, and I want to ask the lawyers. And thank 
you to all of the lawyers that are there to represent people 
who so desperately need help. I am more concerned with not only 
the criminalization and incarceration at these facilities, but 
also the for-profit motive of many of the facilities that I 
have visited. So I wanted to ask a question specifically about 
some of our vulnerable populations, and my colleague from 
California already asked about pregnant women. I am 
particularly concerned about the shackling of pregnant women. 
Does that practice still take place, either one of the lawyers?
    Ms. Altman. Thank you so much for raising that question, 
Congressman Garcia, and for all you have done on this issue. 
You know, we don't have good information in many cases and on 
many issues out of ICE for what is happening in detention, and 
so I can't answer with certainty if right now shackling is 
occurring with pregnant women. We do know that it has been an 
issue that has persisted. Generally, if I can, though, I would 
take the opportunity to note that that is one of many issues in 
which the standards that Mr. Homan is lifting up today are 
flagrantly violated. They also happen to be standards that are 
taken from correctional standards, and so I would argue that 
the very use of them in this context is improper.
    The OIG has reported, repeatedly reported, on the fact that 
even well-documented deficiencies of their own standards that 
ICE has repeatedly committed to correct go uncorrected for 
years. And so certainly the shackling and mistreatment of 
pregnant women is one of many issues that fall within that 
category.
    Ms. Garcia. Well, I filed a bill to stop that, but I am 
also concerned because in Homestead when I visited at the 
invitation of my colleague from Florida, who will speak after 
me, as soon as the child turns 18, ICE comes to pick them up at 
the ORR denter, and they put them in handcuffs and shackling. 
Why would they do that? They have not been convicted of any 
crime. They are not prisoners. Well, at that point they are 18, 
so I guess they are adults, but it is not a crime to be an 
adult, is it?
    Ms. Altman. It is not a crime, and I would also say because 
we do actually have pending litigation on this issue, that it 
is also an unlawful practice by ICE. The law requires that in 
the case of vulnerable 18-year-olds who are coming out of 
shelter, that there be consideration of placement in an 
alternative to detention program or a continuum of care, like 
the programs that Mr. Correa has described, and ICE is 
flagrantly ignoring this instruction. We have seen a massive 
increase, and the detention is extremely disorienting for 18-
year-olds who are largely seeking asylum in the United States 
to go from an ORR shelter into the kind of incarceration-like 
setting that you have described today.
    Ms. Garcia. Right. And, is it Ms. Schikore?
    Ms. Schikore. Schikore.
    Ms. Garcia. Schikore. I wanted to ask you. I was struck. 
You said that the program that you run is considerably more 
cost-efficient and costs less than what it takes for us to 
detain someone. I really, really want to dig in a little bit 
more on that. I think I was restored about a minute. Can I just 
finish the question? Very quickly.
    Ms. Jayapal. Very quickly.
    Ms. Garcia. What we also have found out is that at for-
profit centers, they are getting paid a lot more per day for 
each person or detainee than the nonprofit centers. Are you 
finding that to be true also?
    Ms. Schikore. Yeah, that is definitely true that the 
private centers get a higher per diem. We deal with four county 
jails in the Chicago area, and their per diem is somewhere 
between $70 and $90 depending on which jail.
    Ms. Garcia. Okay. And Homestead----
    Ms. Jayapal. The time of the gentlewoman has expired. The 
time of the gentlewoman has expired.
    Ms. Garcia. I yield back. Thank you.
    Ms. Jayapal. Thank you. I would like to briefly address the 
members of the audience in the hearing room today. We welcome 
you. We respect your right to be here. We also ask in turn for 
your respect as we proceed with the business of the committee 
today. It is the intention of this committee to proceed with 
this hearing without disruptions, and we expect everyone to 
observe proper decorum. And with that, I yield to the ranking 
member of the committee, Mr. Buck, for 5 minutes.
    Mr. Buck. I thank the chairwoman. I want to clarify 
something. In my home county in Colorado, we have many illegal 
immigrants. And they are hardworking, they are nonviolent, and 
they are, other than being in this country illegally, they are 
law abiding, mostly because they don't want to be noticed, and 
they don't want to be deported. And I think that is true when I 
talk to my colleagues around the country. However, it is not 
racist to talk about the folks who have lost loved ones as a 
result of murders. It is not racist to talk about how we could 
do better to increase public safety in this country.
    It is an absolutely necessary conversation that we need to 
have. And murder that is committed by an illegal immigrant or a 
crime that is committed by an illegal immigrant is an 
unnecessary crime because that illegal immigrant should not be 
in this country, and we have to get that straight. It is not a 
matter of race. It is a matter of public safety.
    I recognize that we have a serious problem. We have a 
serious problem at our border. We have a serious problem by not 
recognizing how we can help those in our own hemisphere build 
their economies so they don't have the motive to come to this 
country illegally. We have a serious problem with sanctuary 
cities. We have serious problems across the border that this 
body should be dealing with. But do not call others racists and 
impugn the integrity and the motives of others because we on 
this side of the aisle want to raise a very important issue 
because of the hardship that others are suffering in this 
country.
    Ms. Schikore, I want to ask you a question. I was a 
prosecutor for 25 years at the Federal level and at the State 
level, and we sought alternatives to detention as much as we 
could for taxpayer reasons. We were trying to save money. And 
what we tried to do when we advocated in court was we tried to 
make sure we distinguished between those who were violent and 
should not be placed in community detention, and those who were 
nonviolent and not a flight risk and were more appropriate for 
community detention. Would you agree with that philosophy as it 
applies to those that could be detained by ICE?
    So asylum seekers without any violent history, without a 
flight risk, those that have ties to the community, and others 
who are violent, would you agree that that should be taken into 
account when looking at a facility such as yours?
    Ms. Schikore. Indeed that should be taken into account, and 
we do in our program. We don't take people into our program who 
have a violent history. The nuance that I would like to add is 
that what we define as criminal is problematic in this country, 
and we are aware of, for example, of people that we were trying 
to get released to our program who the only crime they had 
committed was returning to the U.S. a second time after 
experiencing additional violence in home country after being 
deported. And that was a reason they couldn't be released to 
us.
    Mr. Buck. Sure, and there are other crimes that we might 
disagree about. Identity theft is a very common crime with 
people who are in this country illegally. It is not a violent 
crime, but it is something that concerns those of us in law 
enforcement. And we might disagree about the appropriateness, 
but there are certainly on the edges, there are people on both 
sides that we would say are appropriate and not appropriate.
    Sheriff Jenkins, I want to ask you the same question. 
Having been in law enforcement, I think we would probably agree 
that to save taxpayer money--you are an elected official--to 
save taxpayer money, you want to look at non-detention 
alternatives when appropriate.
    Sheriff Jenkins. Correct. We don't really have the option 
under our agreement with ICE as far as our non-detention 
alternatives, therefore, actually other incarcerates in the 
local system. But I will tell you this. Every incarcerate in 
our jail through the 287(g) Program or the housing program has 
been convicted of a crime or has a serious criminal history, 
so. So I would argue with some of the statements made here this 
morning about those incarcerated are not criminals or convicted 
criminals.
    Mr. Buck. I understand. And, Mr. Homan, I want to give you 
some time, but I do want to ask one quick question, and I want 
to make one quick statement. I find it very offensive that 
anybody would compare any Federal employee, frankly, to the 
Gestapo or running Nazi concentration camps. That is very 
offensive. I have 15 seconds, and I yield to you.
    Mr. Homan. Thank you for saying that. I wish some in the 
Democratic leadership would say that out loud. Look, you want 
to know why there is 50,000 people in detention? Do you want to 
know why we have illegal entries in the United States? Do you 
want to know why we have these issues? Because you have failed 
to secure the border. You guys failed to work with this 
President to close the three loopholes we have asked for for 2 
years to close.
    Ms. Jayapal. The time of the gentleman has expired.
    Mr. Homan. So if you want to know why this issue exists, 
you need to look in the mirror.
    Ms. Jayapal. The time of the gentleman has expired.
    Mr. Homan. You have failed the American people by not 
securing the border----
    Ms. Jayapal. Mr. Homan.
    Mr. Homan [continuing]. And closing loopholes.
    Ms. Jayapal. Mr. Homan, please respect the chair and the 
authority of the chair. The time of the gentleman has expired.
    Mr. Homan. I have asked you politely----
    Ms. Jayapal. The gentleman from----
    Mr. Homan [continuing]. To let me go beyond my time.
    Ms. Jayapal. The gentleman from----
    Mr. Homan. And you let other people go beyond their time.
    Ms. Jayapal. The gentleman----
    Mr. Homan. But not to Tom Homan.
    Ms. Jayapal. We have----
    Mr. Homan. He don't get to go beyond his time.
    Ms. Jayapal. Mr. Homan, we have approved----
    Mr. Homan. This is a circus. This is a circus.
    Ms. Jayapal [continuing]. An agreement between the 
Republicans and the Democrats with the ranking member. We 
increased the time of one member of Congress who was 
interrupted by a protest. That is done with the approval of the 
ranking member. Please respect the chair's authority. The 
gentleman----
    Mr. Homan. I respect the chair's authority, but the chair--
--
    Ms. Jayapal. Mr. Homan. Excuse me.
    Mr. Homan. You work for me. I am a taxpayer. I am a 
taxpayer. You work for me.
    Ms. Jayapal. The witness will suspend. The gentlewoman from 
Florida is recognized, Ms. Mucarsel-Powell.
    Ms. Mucarsel-Powell. Thank you, Madam Chair. We are losing 
our civility in this country, and I want to make something very 
clear to everyone. To the witnesses, thank you for coming here 
this morning. We are all Americans. We must all respect the 
rule of law. We all work very hard to keep our country and our 
communities safe. But every person that is in the United States 
deserves due process, and in the United States of America, we 
do not violate human rights.
    And the ICE detention system must be reformed. That is why 
we are having this hearing here today. There is an alarming 
lack of oversight in many of the ICE detention facilities. 
There are many deaths that could have been avoided that have 
been reported. We know that 26 people have already lost their 
lives under ICE custody in the past 2-and-a-half years, and 
many of these have been due to medical negligence. The DHS 
inspector general has found that many of these facilities pose 
health risks, and there is not proper hygiene, proper 
oversight. Overall, there is a lack of accountability.
    In my district in South Florida, we have an ICE detention 
facility, the Krome Processing Center. And my office has 
received multiple complaints that Krome does not offer adequate 
medical or mental healthcare. We have heard that immigrants are 
often placed in isolation, solitary confinement, a concern that 
the DHS inspector general has raised at other facilities like 
Krome. We have heard that officers are sometimes slow to 
respond to concerns raised by detainees, and they have fatal 
consequences.
    We heard of a story of the death of Jose Leonardo Lemus 
Rajo. Jose was a severe alcoholic when he was admitted to Krome 
in 2016. Despite notifying the center of his condition, Jose 
did not receive the medical attention. His condition quickly 
deteriorated because of his withdrawals. He experienced 
tremors. He was foaming at the mouth and suffered from 
hallucinations. He died days after he was admitted to this 
facility. Doctors reviewing Jose's case indicated that his 
death was entirely preventable had he received the right 
treatment. Instead, staff treated Jose with sporadic and 
inadequate doses of medication that ultimately causes his 
death.
    Instances like the death of Jose cannot be allowed to occur 
in our immigration system again. We are in the United States of 
America. We do not violate human rights. We protect every 
individual's right to due process. Everyone. We must ensure 
that adequate oversight is conducted over ICE, and we must 
never forget that the safety and the wellbeing of all 
individuals in this country come first.
    And I see the pictures, and I want to tell you I am very, 
very sorry for your loss, and criminals that commit crimes need 
to pay the consequences. I agree with you. We just yesterday 
had a hearing on banning assault weapons. And so this doesn't 
justify protecting people that have taken the lives of your 
family members, and for that I am truly, truly sorry. We are 
talking accountability and oversight of a Federal agency that 
is violating human rights for people that have not committed 
those crimes.
    So my question is to Mr. Davydov. The Office of Refugee 
Resettlement operates the Homestead Detention Facility in my 
district, and Homestead is a facility designed for children, 
and it houses children of all ages, from 13 to 17. And when 
they turn 18, like my colleague mentioned, they are taken on 
their birthday in shackles to adult detention facilities. Can 
you just tell me a little bit about what you experienced at the 
Krome Detention Facility in my district?
    Mr. Davydov. Yes. I stayed in the Krome facility. I was 
moved there after, like, a 24 hour process. I was held in this 
dormitory with, like, 100 bunk beds. At the time I showed up, 
there was no bed for me. They offered me this, like, I don't 
know, foldable bed. But because I was admitted in the medical 
facility after that, by the time I returned, they found me a 
place. So it was super loud. It was very cold at night. It has 
only, like, four showers also working, the shower. So 
basically, and it was----
    Ms. Mucarsel-Powell. Thank you. I am sorry. My time is up. 
Would you say that it would be appropriate for----
    Ms. Jayapal. The time of the gentlelady has----
    Ms. Mucarsel-Powell [continuing]. A child to be in that 
facility?
    Ms. Jayapal. The time of the gentlewoman has expired. With 
that, I would like to----
    Ms. Mucarsel-Powell. If you could just answer----
    Ms. Jayapal. I would like to recognize the gentleman from 
Colorado.
    Ms. Mucarsel-Powell. Thank you.
    Mr. Neguse. Madam Chair, I want to thank you for hosting 
this important hearing, and also for your leadership with 
respect to the Dignity in Detention Act that you have 
introduced that I am proud to be a co-sponsor of. And we 
appreciate your leadership so much in this Congress on these 
issues for so long.
    I hadn't planned on saying this, but I want to associate 
myself with the remarks of the distinguished gentlelady from 
Florida, and that is I have served on this committee now for 10 
months. I am new to Congress. And we have had a number of 
witness panels where the majority and the minority select 
witnesses who have much to say and make their case in a 
compelling way to the members here. And that is certainly the 
case today with many of the folks who are assembled here.
    But I do think the bluster and the attacks in opening 
statements by one witness in particular on other members of 
this body whom are not here to defend themselves, I think is 
inappropriate. I don't think it is conducive to constructive 
work on these policy items. And I respect, you know, my 
colleagues on the other side of the aisle very much. I 
understand that we have differing political views on these 
issues, but that fundamentally we all are trying to do right by 
our constituents.
    And so I would just ask as we think about the witnesses 
that we call, because, you know, I just for the record will 
submit this. This is an article dated July 15th, 2019, ``Ex-ICE 
Director Says That He Considered Beating Latino Congressman 
During Hearing,'' and this is from Newsweek. I will submit it 
to the record with unanimous consent.
    Ms. Jayapal. Without objection.
    [The information follows:]
      

                       REP. NEGUSE FOR THE RECORD

=======================================================================

      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Neguse. I would just say that to me, it is relevant 
that we have witnesses before us from both sides of the aisle 
who come to these issues in good faith to work with members of 
this body rather than insulting them, and I am certainly going 
to take that approach. I would hope the minority would do the 
same.
    I want to thank witnesses for sharing your stories, those 
of you who have been detained. As the son of immigrants, I want 
to say to you that you are just as American as anyone else here 
in this room, and we appreciate you speaking truth to power and 
sharing your stories today. We have heard already from a number 
of my colleagues about the reality of the growth in immigration 
detention at an alarming rate since 2017 after two executive 
orders were issued by the President, which prioritized all 
undocumented immigrants for detention and removal.
    The average daily population of people in ICE custody this 
month is over 54,000, a 54 percent increase from 2016. Even 
more troubling, nearly 75 percent of these immigrants are 
detained by ICE in for-profit facilities. These facilities, in 
my view, put profits for shareholders above the safety and the 
care of those in detention, and the results in many cases have 
been disastrous. And I will just give you one example.
    In 2017, Kamyar Samimi, a legal permanent resident of the 
United States, died while in custody of the Aurora Detention 
Facility in Colorado. To date, over 30 immigrants, including 
seven children, have died in ICE custody under the current 
Administration. In my home State of Colorado, Geo Group 
operates the Denver Contract Detention Facility in Aurora for 
ICE that holds close to 1,500 people. In 2018, the American 
Immigration Council and the American Immigration Lawyers 
Association filed a complaint about inadequate medical care in 
Aurora. That was followed by a supplemental complaint that was 
filed just a few months ago in June of this year. And most 
recently, the ACLU released a report just last week outlining 
the horrendous conditions at the Aurora facility.
    I would ask unanimous consent, Madam Chair, to enter both 
the American Immigration Council and the ACLU report into the 
record.
    Ms. Jayapal. Without objection.
    [The information follows:]
      

                       REP. NEGUSE FOR THE RECORD

=======================================================================

      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      

                       REP. NEGUSE FOR THE RECORD

=======================================================================

      
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Neguse. You know, I know that my time is limited, and 
so I will just say this. I do think facts matter, and there are 
a variety of reasons that I believe justify ending for-profit 
detention in the United States of America, the obvious moral 
reasons that I think compel us as a body to take that step. But 
we also are not entitled to our own set of facts. And, Mr. 
Homan, in your written testimony, you noted, in your view, that 
``Using outside contractors that run facilities like these as 
their core business function not only save millions in taxpayer 
funds, but it increases the quality of care for those being 
detained.''
    With respect to the financial piece of this, I have here 
the Fiscal Year 2018 ICE report from the Department of Homeland 
Security that details the total direct costs: $149.58 for 
contract detention facilities per bed, and $98.27 for 
intergovernmental service agreement facilities, IGSA 
facilities. I don't think there is any question that we are 
wasting millions of taxpayer dollars, in my view, by having 
these for-profit facilities.
    Ms. Jayapal. The time of the gentleman has expired.
    Mr. Neguse. And with that, I yield back the balance of my 
time.
    Ms. Jayapal. Thank you. The time of the gentleman has 
expired.
    Mr. Biggs. May I make a parliamentary inquiry?
    Ms. Jayapal. State your parliamentary inquiry.
    Mr. Biggs. I am not sure if it is technically 
parliamentary, but it is the only way I figure I can ask you a 
question, and you can rule me as not parliamentary if you want. 
I am requesting that we allow the minority to have a hearing on 
this very important topic, and I will follow that up with a 
letter making that request. But I am----
    Ms. Jayapal. We will take that under consideration.
    Mr. Biggs. Thank you.
    Ms. Jayapal. Thank you. The gentleman has yielded back. I 
now recognize the gentlelady from Texas, Sheila Jackson Lee, 
for 5 minutes.
    Ms. Jackson Lee. Let me, first of all, thank the chairwoman 
twice and ranking member for this hearing. And I must thank my 
good friend from Colorado, Mr. Neguse, for his initial 
courtesies to yield to me. I had to step out of the room at the 
time that he would have done so, and hopefully clarify the 
rules that when you yield to an individual, you do not lose 
your time. I wanted to make sure I put that on the record.
    Let me indicate that I have the deepest amount of sympathy 
for anyone that loses a loved one. And having been on the 
Homeland Security Committee dealing with these issues for 20 
years plus, I have seen a lot of tragedy, and I have recognized 
the pain of families, recognized the pain and the loss of 
officers, and also have worked hard to provide the appropriate 
equipment necessary for our work to be done. With that in mind, 
I believe that we will not succeed in this if we talk at each 
other instead of to each other. This is a Nation of immigrants 
and a Nation of laws, and all people must be protected.
    The three witnesses that we heard from--if I might call 
them by their first names, Selene, and Denis, and Blanche--are 
not criminals, have no intent to kill or maim anyone. What we 
are speaking about today is the question of the dignity of 
America, the basic sense of human rights, and the Bill of 
Rights that adhere to anyone on our soil to be treated 
decently. When the gentleman who said he was awarded by 
President Obama and worked with our good friend, Mr. Jeh 
Johnson, all secretaries of Homeland Security, have known all 
of the leadership I have known, it makes a difference when the 
leadership sets the tone that these people are human beings.
    So this is not ICE because I have seen ICE and I have 
worked with ICE. But when you begin to get the kind of toxic 
leadership, no one wins, families who are trying to have 
justice or innocent persons who simply have come to this Nation 
because they cannot live anywhere else. And in this Nation, we 
have always been a place. The Statue of Liberty did not 
collapse when those towers were hit. It stood, and it still 
stands.
    I reject and resent the actions that have been dictated by 
the toxicity at the top, that have turned decent Americans who 
work every day, who I have worked with, into the pressure, 
cannot imagine the burden to act like they are presiding over 
terrorists and ne'er-do-wells. So let's get it straight that we 
are all in the same boat. We all care about the same things.
    So let me just, as I quickly ask this question, might I 
please, let me ask the question to you, Heidi, and you see my 
time, on sexual abuse. We understand the numbers between 2010 
and 2017, 1,224 complaints. You answered that question. To 
Jorge, can you answer the question about the importance of the 
asylum process being fair and the importance of immigration 
judges working my constituent that people are pleading, decent 
human being, picked up, Muslim, is now trying to get a stay of 
his removal. And he is being held by ICE. We are negotiating 
that he is where he is with the immigration courts. Everyone 
feels the pressure of toxicity so that asylum becomes useless. 
Would you answer that question?
    I want to put on the record that I am against the NPP. I 
want to put on the record as well my amendment and legislation 
regarding Freedom of Information Act applying to all centers, 
profit and nonprofit. I would appreciate a comment on that, and 
that is before what we are going to do about these centers. But 
if the two of you would answer, I would appreciate it, and I 
will have something to put in the record in a moment. If you 
could quickly answer those questions, please.
    Ms. Altman. Thank you, Congresswoman. I will answer 
quickly. You asked about the prevalence of sexual abuse in 
immigration custody, which is unfortunately quite prevalent and 
largely met with impunity. And I think that this goes to the 
overarching point that you have made, which is that there is a 
toxicity. When asylum seekers, as has happened frequently 
throughout the hearing today, are referred to as criminals, 
when there is a dehumanization of those who are in custody that 
trickles down to the officers who are coming to work every day 
and showing up. One example that I will just end with is that 
you heard reference today to the nooses hanging in the jails in 
Adelanto. There was a suicide just a year earlier, and we were 
told that the guards laughed.
    Ms. Jayapal. The time of the gentlewoman has expired.
    Ms. Jackson Lee. Can he answer the question, the other 
gentleman that I asked about the asylum?
    Ms. Jayapal. We have unfortunately been having situations 
where people have been going too far over.
    Ms. Jackson Lee. No problem.
    Ms. Jayapal. So I need to stick to the rules.
    Ms. Jackson Lee. No problem. Let me put into the record, if 
I might ask unanimous consent, an article by Dylan Petroleus, I 
believe, dated August dated August 5th. And I thank the 
gentlelady, and I would also join the gentlelady in asking 
witnesses to be here with the spirit of information and not 
with the spirit of being----
    Ms. Jayapal. Without objection.
    [The information follows:]
      

                    REP. JACKSON LEE FOR THE RECORD

=======================================================================

      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Jackson Lee [continuing]. Because of who they are and 
their race. I yield back.
    Ms. Jayapal. The gentlewoman has yielded. I now recognize 
the ranking member of the full committee, Mr. Collins, for 5 
minutes.
    Mr. Collins. Thank you, Madam Chair, I appreciate that. You 
know, the interesting thing about this hearing is, one, I guess 
I am glad we are having it. It is as I have said before, the 
reason that you have hearings is to lead to answers. Well, we 
are here again having a hearing, but no answers. We have been 
here for 9 months with no answers. What we have heard a lot of 
is how bad our agents are, how bad those in law enforcement 
are, how bad conditions are.
    We put forward a bill just a few months that we talked 
about. I mean, it is not into law. Oh, that is right because it 
can't pass the Senate. It would supposedly help conditions, but 
it dealt more with environmental issues and other things. And 
we don't deal with the very issue at the border of why people 
are coming across, and how this is happening, and why this is 
happening, and the three areas of things that we need to be 
talking about: Flores, asylum, and Trafficking in Victims 
Protection Act. But we don't want to do that because that is 
too simple and it doesn't play politically.
    I am sorry for the DACA recipients. We could have fixed 
DACA, by the way. I am sorry that, you know, some people didn't 
know that you couldn't travel, and I understand that. And it 
may not have been our bill, but there was a bill, and we 
discussed a bill passed out of here that many of us on the 
Republican side would love to have fixed and the President 
would have. And the majority leader of this House actually got 
on the floor and said last year this could have happened, and 
there was a bill that was within one or two signatures away of 
being taken off the desk and voted on.
    And instead of taking that bill which would have got 40 or 
50 or maybe even 60 Republicans to pass this year, went to the 
Senate, passed, and the President sign it so there is no more 
problem here, we chose to pass a partisan DACA bill, which 
can't pass, which means that, frankly, it seems the majority is 
only interested in using DACA as a political issue and not a 
solution. If you don't believe it, just look at the results. 
Don't look at the rhetoric. Look at the results, not the 
rhetoric. It is one thing to tell you something. It is another 
thing to promise you something. It is another thing to bring 
people to come here and testify to the conditions, and I 
appreciate that and sympathetic to that. But don't look at the 
rhetoric. Look at the results.
    I would love to see this committee actually propose 
results. I said this a week or two ago when we were having 
this, again, discussion on immigration and talking about how 
dehumanizing it is. It is dehumanizing to continue to come here 
and talk about it and not put a bill before this committee. I 
got you. Too dehumanizing. So you can come and be witnesses, 
the majority witness or the minority, but it is dehumanizing to 
come here and not know that this committee could actually pass 
bills and choose not to.
    With that, Mr. Homan, again, it has been one of those 
days----
    Mr. Homan. I appreciate it. First of all, I think everybody 
needs to be reminded, entering this country illegally is a 
crime. There is no prerequisite you got to commit yet another 
crime to enforce the law. That is the law you enacted. The 
young lady over here mentioned 26 deaths in ICE custody. Wrong. 
That number is nine, and one is too many, but out of the 
majority of those nine deaths, which is the lowest of any 
Federal and State facility, most of them died within days of 
detention. It wasn't ICE's fault. They came into ICE's custody 
in bad condition. So and the year before that, the majority of 
them were heart attacks. Heart attacks happen across this 
country every day. I don't know how you prevent that. So nine, 
not 26.
    And finally, I will say this, sir. Your comment about me 
wanting to assault a lawmaker. Let me explain myself to that. 
Probably not the right thing to say, but I was angry, and let 
me tell you why I was angry. Because you or no one in this room 
have seen what I have seen in my 34 years. You didn't stand in 
the back of tractor trailers finding 19 dead aliens that 
suffocated to death because the smuggler didn't care, including 
a 5-year-old boy. What do you think his last 30 minutes were 
like?
    I was there. I seen it. I seen it. I saw it. And I had a 5-
year-old boy at the time, and it changed me for the rest of my 
life. I have seen people who couldn't pay their smugglers and 
got stabbed in the face 22 times. Thirty-one percent of migrant 
women are being raped crossing this border. Children are dying. 
Cartels are getting rich. Why am I angry? Because you haven't 
done anything to fix it. Nothing.
    We have been up here for 2 years trying to close the three 
loopholes that Congress says needs to be closed, and you 
haven't taken one action. But if there is a policy or 
initiative that is going to cause an illegal alien being 
arrested or be detained or be removed, we are going to have a 
hearing within days. Within days. But I am still waiting on a 
hearing on sanctuary cities because these people's lives have 
been changed forever. Where is the hearing on sanctuary cities? 
Where is the hearing on the asylum abuse? Where is the hearing 
on the TVPRA so we treat children from Central America better?
    That is why I am angry, sir. I notice you are not paying 
attention, but that is why I am angry because you have not seen 
what I have seen, and it has affected me in my life. I have 
spent my career trying to save lives, and when I see what is 
going on the southern border right now and you are ignoring it 
for political reasons. Why not have a hearing on that? Why not 
fix the problem and close the loopholes? Why not? There is no 
downside in securing our border. There is no downside in 
illegal immigration being decreased. There is no downside on 
less drugs coming in this country. Opioids. ICE has seen enough 
opioids to kill every man, women, and child 3 times. There is 
no downside in taking money out of cartels' hands. None.
    Mr. Collins. I yield back.
    Ms. Jayapal. Thank you. And with that, we do conclude 
today's hearing. I would like to say that the truth is our 
country is far too reliant on the incarceration of immigrants. 
The beneficiaries are for-profit prison companies. But we do 
have sensible, humane, cost-effective solutions that would be 
provided under my bill, the Dignity for Detained Immigrants 
Act. And I do think it is unfortunate, and I will just----
    Mr. Collins. Will the gentlelady yield?
    Ms. Jayapal. But I do think that it is unfortunate----
    Mr. Collins. Point of order. Is the committee over or is it 
a time for another 5-minute round?
    Ms. Jayapal. No, it is not a time for another 5-minute 
round.
    Mr. Collins. Then it is time to adjourn the committee, 
Madam Chair.
    Ms. Jayapal. I just said to the ranking member of the 
subcommittee that I was going to make one brief statement.
    Mr. Collins. But as the ranking member of the committee, I 
am calling a point of order and saying it is time to end this 
committee.
    Ms. Jayapal. Okay. Well, I would like to say that I hope 
that witnesses called by the minority in the future respect the 
authority of the committee.
    Mr. Collins. I wish the committee chair right now would 
recognize the fact that she is supposed to be calling this 
committee----
    Ms. Jayapal. I would once again like to----
    Mr. Collins. There is not 5 minutes extra.
    Ms. Jayapal. Thank you, Mr. Collins. I would once again 
like to thank the panel of witnesses, and particularly those 
who traveled far away to be with us today.
    Without objection, all members will have 5 legislative days 
to submit additional questions for the witness or additional 
materials for the record.
    Without objection, the hearing is adjourned.
    [Whereupon, at 12:53 p.m., the committee was adjourned.]
      

                                APPENDIX

=======================================================================

      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
</pre></body></html>
